<html>
<title> - MOM, APPLE PIE, AND WORKING FOR AMERICA: ACCOUNTABILITY AND REWARDS FOR THE FEDERAL WORKFORCE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
MOM, APPLE PIE, AND WORKING FOR AMERICA: ACCOUNTABILITY AND REWARDS FOR 
                         THE FEDERAL WORKFORCE

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON THE FEDERAL WORKFORCE
                        AND AGENCY ORGANIZATION

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 5, 2005

                               __________

                           Serial No. 109-112

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                                 ______

                 U.S. GOVERNMENT PRINTING OFFICE
25-617 PDF             WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

     Subcommittee on the Federal Workforce and Agency Organization

                    JON C. PORTER, Nevada, Chairman
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
TOM DAVIS, Virginia                  MAJOR R. OWENS, New York
DARRELL E. ISSA, California          ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas                    Columbia
PATRICK T. McHENRY, North Carolina   ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   CHRIS VAN HOLLEN, Maryland

                               Ex Officio
                      HENRY A. WAXMAN, California

                     Ron Martinson, Staff Director
           Chad Bungard, Deputy Staff Director/Chief Counsel
                       Chad Christofferson, Clerk
            Tania Shand, Minority Professional Staff Member



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 5, 2005..................................     1
Statement of:
    Shaw, Theresa S., Chief Operating Officer, Office of Federal 
      Student Aid, U.S. Department of Education; Max Stier, 
      president and CEO, Partnership for Public Service; W. Scott 
      Gould, vice president, Public Sector Strategy and Change, 
      Business and Consulting Service, IBM Global Services; 
      Michael B. Styles, national president, Federal Managers 
      Association; John Gage, national president, American 
      Federation of Government Employees; and Colleen M. Kelley, 
      national president, National Treasury Employees Union......    72
        Gage, John...............................................   127
        Gould, W. Scott..........................................    96
        Kelley, Colleen M........................................   143
        Shaw, Theresa S..........................................    72
        Stier, Max...............................................    81
        Styles, Michael B........................................   108
    Springer, Linda M., Director, U.S. Office of Personnel 
      Management; and David M. Walker, Comptroller General, U.S. 
      Government Accountability Office...........................     9
        Springer, Linda M........................................     9
        Walker, David M..........................................    16
Letters, statements, etc., submitted for the record by:
    Gage, John, national president, American Federation of 
      Government Employees, prepared statement of................   130
    Gould, W. Scott, vice president, Public Sector Strategy and 
      Change, Business and Consulting Service, IBM Global 
      Services, prepared statement of............................    98
    Kelley, Colleen M., national president, National Treasury 
      Employees Union, prepared statement of.....................   146
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................     4
    Shaw, Theresa S., Chief Operating Officer, Office of Federal 
      Student Aid, U.S. Department of Education, prepared 
      statement of...............................................    75
    Stier, Max, president and CEO, Partnership for Public 
      Service, prepared statement of.............................    83
    Styles, Michael B., national president, Federal Managers 
      Association, prepared statement of.........................   110
    Springer, Linda M., Director, U.S. Office of Personnel 
      Management:
        Information concerning performance-based alternative pay 
          systems................................................    45
        Prepared statement of....................................    11
    Walker, David M., Comptroller General, U.S. Government 
      Accountability Office, prepared statement of...............    18


MOM, APPLE PIE, AND WORKING FOR AMERICA: ACCOUNTABILITY AND REWARDS FOR 
                         THE FEDERAL WORKFORCE

                              ----------                              


                       WEDNESDAY, OCTOBER 5, 2005

                  House of Representatives,
      Subcommittee on Federal Workforce and Agency 
                                      Organization,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Jon C. Porter 
(chairman of the subcommittee) presiding.
    Present: Representatives Porter, Davis of Virginia (ex 
officio), Norton, and Van Hollen.
    Staff present: Ronald Martinson, staff director; Chad 
Bungard, deputy staff director/chief counsel; Christopher 
Barkley and Shannon Meade, professional staff members; Patrick 
Jennings, OPM detailee/senior counsel; Chad Christofferson, LA/
clerk; Mark Stephenson and Tania Shand, minority professional 
staff member; and Teresa Coufal, minority assistant clerk.
    Mr. Porter. Good morning. I would like to bring the meeting 
to order of the Subcommittee on the Federal Workforce and 
Agency Organization. Good morning, everyone. Mr. Gage is 
supposed to bring donuts and coffee. John, where are you this 
morning? John you are supposed to bring donuts and coffee for 
everyone. You were late. Next time.
    Welcome, everyone. I appreciate you being here. As I 
mentioned, I would like to bring the meeting to order. We do 
have a quorum present.
    Working for America is a wonderful privilege and a great 
responsibility, something that I take very seriously, and I 
know that most Federal employees feel the same way.
    The work of Federal employees affects almost every aspect 
of our daily lives, from sending a timely Social Security check 
to protecting our country from terrorist attacks. Each aspect 
is important as millions of taxpayers rely on the Federal 
Government to provide them with service that is responsive, 
efficient and accountable. That is why it is important to 
review ways in which improvements can be made to the current 
system so the Federal Government can better serve the American 
people.
    Recently the administration released a discussion draft of 
a comprehensive government-wide reform personnel bill titled 
the Working for America Act, and I should emphasize that the 
Working for America Act is a draft proposal. The proposal has 
not been introduced as a bill and that is another reason why we 
are here today as we move forward looking at legislation so we 
can have everyone's ideas and suggestions before that bill is 
introduced.
    We are here today to discuss the proposal in its current 
form and exchange some ideas about how to improve its 
provisions. I believe that a full, open and fair hearing should 
be held on this matter before a bill of this magnitude is 
introduced. I am hear to listen to all sides and all viewpoints 
with an open mind.
    I know that we will hear from some groups today that say no 
change is needed and that everything is working just fine, but 
there are some glaring problems with the current system. For 
one, high and low performers get the same annual pay increases. 
This is something that does not sit well even with the majority 
of Federal employees. According to a 2004 Federal human capital 
survey, employees are not satisfied with the recognition they 
receive for doing a good job and are not happy with the fact 
that steps are not taken to deal with a poor performer who 
cannot or will not improve and the differences in performance 
are not recognized. Who can be against a fair process that 
rewards the star performers and effectively deals with the poor 
performers?
    Second, we now live in a world where agency performance 
matters more than ever, but agency performance always has 
mattered. The Katrina disaster itself demonstrated the need for 
high performing agencies and leadership in those agencies. 
Unfortunately, our current Federal personnel system does not 
always encourage efficiency or hard work.
    Any proposal that allows agencies to better manage, develop 
and reward its employees to better serve the American people 
should be seriously considered. Better performing employees 
mean a better performing agency, which means that taxpayers are 
getting the biggest bang for their buck.
    Third, the Federal Government needs to be better able to 
attract and retain quality employees, but we need to make sure 
that every agency has the same ability to attract and keep 
quality employees. The new personnel systems at DHS and DOD 
will place over half the government under alternative personnel 
systems within a short time. Agencies without modern, flexible 
personnel systems are going to be at a competitive disadvantage 
in the areas of recruitment and retention in relationship to 
the private sector and in relationship with agencies with 
flexible personnel systems.
    I understand that change can be difficult and that there 
are lots of concerns out there about moving into a new 
personnel system. I ask that everyone here maintain an open 
mind in how we can improve the current system, and when I say 
an open mind, I encourage all those that testify today, 
although you may have parts of the draft that you support, I 
also would like to hear your ideas on what we can do better to 
make it better. This is not just about a session to complain 
about a draft. It is a session to provide very honest and very 
blunt discussion on what we can do to help our Federal 
employees but, more importantly, the taxpayers.
    As I said, I hope that everyone has an open mind on how we 
can improve the system, and I look forward to hearing from the 
distinguished group before the subcommittee today. We are 
privileged to have some very knowledgeable people here today 
who will bring different points of view to this proposed 
legislation, and I look forward to our discussion and would 
like to move to a few procedural matters at this time.
    I ask unanimous consent that all Members have 5 legislative 
days to submit statements and written questions for the record, 
that any answers to written questions provided by witnesses 
also be included in the record. Without objection, so ordered.
    I ask unanimous consent that all exhibits, documents and 
other materials referred to by the Members and the witnesses 
may be included in the hearing record and that all Members be 
permitted to revise and extend their remarks. Without 
objection, so ordered.
    It is the practice of the subcommittee to administer the 
oath, which I will do here in a moment, but first I would like 
you to recognize my Congresswoman for any opening remarks. Good 
morning.
    [The prepared statement of Hon. Jon C. Porter follows:]
    [GRAPHIC] [TIFF OMITTED] T5617.001
    
    [GRAPHIC] [TIFF OMITTED] T5617.002
    
    Ms. Norton. Thank you very much, Mr. Chairman. I am very 
pleased to be of service with you in Washington. I appreciate, 
Mr. Chairman, that before this bill is final that you're having 
another hearing.
    In case its controversial nature was not clear on the face 
of it, it should be noted that the--one of our appropriation 
committees, the House Transportation-Treasury Appropriation 
Committee, withheld funding, the funding requested by OPM, to 
continue to overhaul the civil service. Now that is the 
appropriation committee, which would have no reason, it seems 
to me, to do that, nor would the hesitation of the Senate be so 
clear if this were easy.
    Mr. Chairman, I am not at odds with what is being 
undertaken here. I simply begin with an appreciation for the 
uniqueness of the system and how difficult it is. Now, if you 
want to change the system so that it looks like your local 
largest corporation, we can try to do that. But let me tell you 
something. Your local largest corporation,wherever members may 
in fact reside, do not operate in the system under the 
Constitution of the United States. It requires due process, at 
the same time there is collective bargaining.
    The size of the work force and the unique strictures under 
which it operates presents a fascinating challenge, but we have 
to take the challenge and not simply imitate what we see in the 
larger community. I served on the board of three Fortune 500 
companies. Two are unionized. One was not. They don't have the 
same issues, and they don't have the same problems. And they 
are able to operate in a way that this committee and that the 
Congress of the United States must come to grips with.
    We have the problems that have been outlined by this 
subcommittee. The fact that there has already been a court 
decision overturning a major section of what we have done is 
more than a shot across the bow. It is an indication that there 
is still a lot of work to do and that we have not grasped the 
functional and the intellectual challenge that this presents.
    I compare it, Mr. Chairman, to those who approach September 
11th not knowing what to do, recognizing we had a specific 
challenge, and realizing we had to keep our society safe. And 
so their first instinct was to close down everything. Well, 
there is a way to do this.
    The Constitution of the United States isn't going to let 
you do it. There is no wording by the Congress that can 
overcome certain problems that are present in the--what do we 
call it--this act, the act I want to for the record say it 
correct, Working for America Act.
    Understand that we have already taken most of the work 
force and by statute of the United States passed by both Houses 
in fact done what this act would seek to do for the entire work 
force. You would think that having done that so recently the 
first thing you want to do is look very closely--since you have 
the largest section of the work force in the first place, what 
better laboratory to look at what you have accomplished to 
correct your mistakes?
    I chaired a very controversial agency at the time it was on 
its knees, the Equal Employment Opportunity Commission, and I 
knew that the agency had to be changed from top to bottom. 
Well, I didn't do anything like what we do here, which is take 
the more than half of the offices and just change them. We took 
three offices, tried every single change we were trying to do, 
see if those changes worked, and after in fact being informed 
by practice, created a system that worked.
    I don't see us doing that here. Let's look at Judge 
Collier's decision, which focused on collective bargaining. 
Well, you can't collective bargain everybody. You can't simply 
redefine collective bargaining in the United States of America 
today, to quote what the judge said, when good faith bargaining 
leads to a contract that one side can disavow. Without remedy, 
the right to engage in collective bargaining is illusory.
    Now, you can try to abolish collective bargaining but you 
can't get around what in fact collective bargaining means in 
the law. And we can't get out of what it has come to mean and 
what we ourselves have over the decades reinforced as its 
meaning in the Federal sector, just to give one aspect, because 
we are trying to change everything in this bill: Pay, job 
classification, labor-management relations, adverse actions and 
appeals. Good luck.
    Doing all of that in most of your work force, we have 
already done that in the DOD, and now you're facing whether 
you're going to appeal or not a decision that has come down. 
Very clear, the trial judge left part of the system in place 
and was very clear what had been done with the rest of it.
    Essentially what we did was to redefine collective 
bargaining. We redefined it out of existence. One side could do 
what it wanted to do. DOD and HHS, we can do because, we 
confront emergencies, what it is we have to do. And yet, in 
this bill, Mr. Chairman, there is language, amazing language, a 
language that would give agencies, period, we are not even 
talking about DOD or HHS, which used the pretext of emergency 
perhaps when it sees fit, but we are talking about any agency 
that can take action without collective bargaining, in order to 
prepare for, practice for or prevent any emergency, which is 
very broadly defined.
    Well, you know, you know even a king doesn't have that 
authority. And I don't think in a democracy we want to give any 
agency head the right to decide, ``I said it is an emergency, 
it is an emergency. So I am going to do what I want to do and 
nobody has any say.''
    You can't run the Federal Government that way, and what we 
are doing is getting ourselves deeper and deeper into a 
situation where everything we do is in fact going to be tested 
in the courts.
    So I understand that one of the great remedies for all this 
is just train everybody and you don't have to care about all 
the rest of it. Well, you can't train everybody out of the 
right to collective bargaining. You can't train everybody out 
of how to make sure that when you give pay increases you do not 
in fact engage in discrimination that will not take you to 
court. You have to have a system that does that and that 
enables people to work it.
    We do not have such a system today. I am with you, Mr. 
Chairman, in trying to see if we can get our way to such a 
system.
    Thank you very much.
    Mr. Porter. Thank you very much. I like giving my colleague 
a hard time because I do live in the District. So it is always 
good to have two Members here working together. So I appreciate 
that very much.
    Just a couple of key points. In my position as chairman, I 
look at this very cautiously and I know there is a lot of steps 
that have to take place before we make any major changes. There 
are many, many steps. We also need to look closely at some of 
the successes and some of the failures throughout the system 
through the years. But the bottom line is we are looking at a 
personnel system that was created in the forties. So for those 
that are opposed to the concept of what may well be in this 
particular act, and I said in my opening statement, we have to 
find a better way to treat our Federal employees, which in turn 
can treat our taxpayers--our bosses--more efficiently, with 
more accountability, because the expectations are high, as they 
should be.
    Again, we are looking at a personnel system that was 
created in the forties. Whether the draft before us is the 
solution is yet to be determined, and that is why we are here 
today.
    We are in a global economy, a global market, where even in 
technology it is dog years. Everybody's computer is obsolete by 
the time we plug it in, technology is in dog years, seven for 
every one. The same with the way we deliver our services. As 
many of you have heard me say before, probably a large share of 
the time of every Member of the Congress in their district 
offices is trying to provide service to our constituents 
because of their frustration with the system. They are 
frustrated. Our taxpayers, our bosses, our constituents, our 
friends and neighbors are frustrated. They call an 800 number 
and no one answers. They get put on hold and it takes them 30 
days to get an answer on certain problems.
    So as Members of Congress, we see firsthand the challenges 
for our constituents, but we also see those Federal employees 
that are doing a great job, and we need to find a way to reward 
those folks that are doing a great job. So today we have some 
experts with us. We are going to talk about better ways to 
encourage our personnel so we can keep our personnel as we move 
into this global economy and global market with high 
expectations, as our bosses should ask for.
    Again I thank you all for being here. I would like to first 
have all the witnesses stand so we can do the proper protocol 
and administer the oath. So actually all witnesses, please.
    [Witnesses sworn.]
    Mr. Porter. Let the record reflect that the witnesses have 
answered in the affirmative and have been seated. I would like 
to highlight the fact that we have so many folks here today to 
express their perspective and expertise. If we can hold our 
comments to the 5 minutes, we will of course have an 
opportunity for questions and answers and if time doesn't 
permit we will ask for you to submit your answers in writing. 
But it is imperative because of limited time and the number of 
folks that we limit ourselves to 5 minutes.
    So in our first panel we will hear from Director Linda 
Springer from the Office of Personnel Management and 
Comptroller General David M. Walker of the U.S. Government 
Accountability Office.
    So Director Springer, we thank you and look forward to your 
testimony.

   STATEMENTS OF LINDA M. SPRINGER, DIRECTOR, U.S. OFFICE OF 
PERSONNEL MANAGEMENT; AND DAVID M. WALKER, COMPTROLLER GENERAL, 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

                 STATEMENT OF LINDA M. SPRINGER

    Ms. Springer. Good morning, Mr. Chairman and members of the 
subcommittee, I want to thank you for the opportunity to 
discuss the administration's legislative proposal for improving 
personnel systems in the Federal Government.
    Simply stated, the Working for America Act will require 
agencies to better manage, develop and reward employees to 
better serve the American people.
    This act will establish a government-wide personnel system 
that creates an environment where employees have the greatest 
opportunity to reach their full potential. Under the proposal, 
individual employees will be provided clear performance goals, 
managers who can help them to be successful, and performance 
and market-based pay.
    An employees's career and pay potential should be 
determined by achievement, not by the passage of time or 
obsolete job classifications. But today it takes employees up 
to 18 years to reach the top of a General Schedule pay grade 
regardless of how well they perform.
    Our proposal establishes a process for implementing a 
system that recognizes and rewards performance. Each agency 
will design its individual plan for using the flexibilities 
once the general authorities are approved. However, no agency 
will be able to use the pay features in the bill until OPM 
certifies that agency's readiness.
    Our proposed legislation recognizes that enhancements to 
personnel systems must be made within the context of core 
values, principles and protections that characterize our 
American Civil Service. Reform can be accomplished while fully 
preserving core principles and protections. In fact, the 
Working for America Act promotes merit system principles by 
putting them into practice more broadly.
    Personnel systems that make it more likely that employees 
reach their full potential will soon cover more than half of 
the Federal work force. The rest should be afforded similar 
opportunities. The Working for America Act ensures that the 
remaining agencies are not left at a competitive disadvantage.
    Let me summarize the central elements of the Working for 
America Act. First, the Civil Service system must preserve core 
Civil Service principles. The act does just that.
    Second, under the Working for America Act provisions OPM 
would establish a core compensation system for the Federal 
Government, would define broad groups of like occupations, as 
well as pay bands within each group that represent clearly 
distinct levels of work. In this core system, market-based pay 
would constitute a significant portion of pay adjustments with 
the balance allocated on the basis of individual performance.
    Third, today even poorly performing employees receive a 
General Schedule increase across the board and locality pay 
increases. The Working for America Act would make those 
increases within a particular band performance based in the 
sense that only employees who are at least fully successful 
would receive those adjustments.
    In addition, our proposal would bar pass/fail appraisal 
systems for all but entry/developmental jobs but, as is the 
case today, would provide agencies with flexibility in 
designing their performance appraisal systems and would require 
OPM to certify that an agency's performance adjustment plan 
meets the high standards that Congress will set before that 
agency is permitted to move to a performance-based pay system.
    As I noted, Federal pay systems that include performance 
based pay are not new at all. They have existed inside the 
Federal Government for 25 years and today cover over 90,000 
Federal employees. And I would note that does not include the 
DHS or DOD legislation. These are other programs that have been 
around as long as 25 years.
    These systems already apply to the same kinds of work and 
workers that the current General Schedule covers. The results 
and trends have been positive across those systems and we have 
looked to the lessons learned from those systems as we have 
developed the Working for America Act.
    The Working for America Act ensures that Federal unions 
retain core collective bargaining rights. The legislation 
modifies Federal labor relations statute to clarify essential 
management prerogatives but preserves the important role and 
rights of unions in the Federal labor relation system.
    These modifications in labor-management are much, much 
narrower in their scope than the flexibilities granted to the 
Department of Homeland Security, and I want to underscore that. 
Let me iterate that an agency will not be able to use pay 
flexibilities in the bill until OPM has certified that agency's 
readiness. To help agencies in that regard, OPM is leveraging 
its leadership of the human capital initiative of the 
President's management agenda.
    Starting in 2006, agencies will be required to develop and 
expand robust performance management systems for a defined 
segment within the agency. In other words, agencies must 
demonstrate that the site is ready to link pay for performance 
appraisal system with the expectation that such improvements 
will expand and continue throughout the agency.
    We are fully aware that OPM will have a critical role in 
ensuring the success of the Working for America Act. We 
recognize agencies will look to us for guidance and assurance 
from implementation and certification and beyond. You and, very 
importantly, the men and women of the Federal work force can be 
sure of the Office of Personnel Management's commitment to 
being fully prepared to carry out those responsibilities.
    Mr. Chairman, that concludes my testimony. I would be glad 
to answer any questions.
    [The prepared statement of Ms. Springer follows:]
    [GRAPHIC] [TIFF OMITTED] T5617.003
    
    [GRAPHIC] [TIFF OMITTED] T5617.004
    
    [GRAPHIC] [TIFF OMITTED] T5617.005
    
    [GRAPHIC] [TIFF OMITTED] T5617.006
    
    [GRAPHIC] [TIFF OMITTED] T5617.007
    
    Mr. Porter. Thank you very much. You may note that we have 
this little beeper going here. It is the alarm clock to let you 
know that your time is up. Anyway, welcome, Mr. Walker, we 
appreciate you being here.

                  STATEMENT OF DAVID M. WALKER

    Mr. Walker. Thank you, Mr. Chairman, Ms. Norton, Mr. Van 
Hollen. It is a pleasure to be back before the subcommittee to 
talk about the draft proposed Working for America Act. Somehow 
I have been thinking about James Brown and Living in America 
all morning. But this is a very serious topic, and I do look 
forward to the opportunity to answering your questions as well.
    Since you have put my entire statement in the record, if I 
can summarize now, I would be pleased to do so.
    Mr. Chairman, each Member of Congress received in February 
of this year this document that was published by GAO. It is 
called, ``21st Century Challenges: Reexamining the Base of the 
Federal Government.'' This document is based upon decades of 
work by GAO for the Congress, and it provides a clear and 
compelling case that a vast majority of the Federal Government 
is based upon conditions that existed in the United States and 
in the world in the 1950's and in the 1960's, and it includes 
over 200 questions that need to be asked and answered to 
position us for a more positive future. One of those 200 
questions relates to the topic that we are covering in today's 
hearing.
    Based upon all of the experience that we have in analyzing 
the government's efforts in the human capital area as well as 
our own internal experience, GAO supports the concept of moving 
forward with appropriate human capital reforms and believes 
that implementing more market-based and performance-oriented 
classification and compensation systems across the entire 
Federal Government is both doable and desirable.
    Importantly, broad based human capital reform in our view 
must be part of a broader change in management strategy and 
must involve a number of changes in the performance management 
systems that exist in the Federal Government today. This 
concept cannot be simply overlaid onto the existing and often 
ineffective performance management systems that exist in the 
Federal Government today.
    In addition, organizations need to buildup their basic 
management capacity and must have adequate resources to 
properly design and effectively and equitably implement more 
market-based and performance-oriented classification 
compensation systems.
    In our view, before implementing dramatic human capital 
reforms, executive branch agencies should follow a phased 
approach that meets a ``Show me'' test, the so-called Missouri 
test; namely, that they have to demonstrate conclusively to OPM 
or some independent qualified third party that they have 
achieved all the conditions necessary in order to maximize the 
chance that there can be successful implementation before they 
would have the authority to implement new classification and 
compensation systems.
    This is contrary and different than what was done for the 
new SES pay ranges. In many cases, agencies were given 
conditional approval based upon promises to take actions. That 
is not acceptable in our view with regard to broad based work 
force changes. The actions must be taken and demonstrated that 
they are in place and functioning before the authority should 
be operationalized in our view.
    We have several observations for your consideration in the 
draft proposal. First, in our view there are two major elements 
of this proposal. The first deals with classification, pay and 
performance management reforms. In our view there is strong 
conceptual merit to moving forward with regard to 
classification pay and performance management reforms. The 
Federal Government has significant prior experience there, and 
I think we know what works and what doesn't work and can learn 
from those lessons.
    We think it is critically important that in making those 
reforms that OPM has to play a key leadership and oversight 
role to make sure that people deliver on their promises and 
they are not abusing their authorities. We also think it is 
critically important for the Congress to play an active and 
ongoing role in connection with monitoring any of these reforms 
efforts.
    The second part of the proposal deals with labor-management 
relations and adverse actions and appeals. In this area, we 
believe that Congress should move slower and possibly 
separately from the classification pay and performance 
management reforms. We do not have as much experience in this 
area and in fact some of the greatest experience that will be 
gained relate to the Department of Homeland Security and the 
Department of Defense, and it might well be prudent for the 
Congress to understand how those are implemented and to learn 
from the lessons there before moving forward with broader based 
reforms in that area.
    A few other quick comments. The definition of emergencies 
with regard to this particular section is very broad and is a 
matter, I believe, of concern.
    Second, there clearly will need to be an adequate pool of 
resources available for agencies to be able to modernize their 
infrastructure. And that is something that will have to be 
addressed.
    Furthermore, to the extent that agencies moved to 
compensation systems that might provide for additional amounts 
being paid in the form of a bonus rather than a base pay 
adjustment that otherwise would have been paid in a base pay 
adjustment under the old Civil Service system, I think it is 
important that they be given credit for CSRS and Federal Thrift 
Saving Plan purposes for that. That would require changing the 
law.
    And last, I think the target date, as I understand it, on 
this proposed legislation is that the current system would 
expire in 2010. My view is it is fine to have a target date, 
but I believe that there should be a conditions based approach, 
that people should not be able to implement these new 
authorities until they've met the conditions. All these 
government agencies may or may not meet the conditions by 2010. 
So it is fine to have a target date. But in the final analysis 
people shouldn't be able to move forward unless and until they 
have met all the conditions whenever that might occur, whether 
it be before or after 2010.
    Thank you very much.
    [The prepared statement of Mr. Walker follows:]
    [GRAPHIC] [TIFF OMITTED] T5617.008
    
    [GRAPHIC] [TIFF OMITTED] T5617.009
    
    [GRAPHIC] [TIFF OMITTED] T5617.010
    
    [GRAPHIC] [TIFF OMITTED] T5617.011
    
    [GRAPHIC] [TIFF OMITTED] T5617.012
    
    [GRAPHIC] [TIFF OMITTED] T5617.013
    
    [GRAPHIC] [TIFF OMITTED] T5617.014
    
    [GRAPHIC] [TIFF OMITTED] T5617.015
    
    [GRAPHIC] [TIFF OMITTED] T5617.016
    
    [GRAPHIC] [TIFF OMITTED] T5617.017
    
    [GRAPHIC] [TIFF OMITTED] T5617.018
    
    [GRAPHIC] [TIFF OMITTED] T5617.019
    
    [GRAPHIC] [TIFF OMITTED] T5617.020
    
    [GRAPHIC] [TIFF OMITTED] T5617.021
    
    [GRAPHIC] [TIFF OMITTED] T5617.022
    
    [GRAPHIC] [TIFF OMITTED] T5617.023
    
    [GRAPHIC] [TIFF OMITTED] T5617.024
    
    [GRAPHIC] [TIFF OMITTED] T5617.025
    
    [GRAPHIC] [TIFF OMITTED] T5617.026
    
    [GRAPHIC] [TIFF OMITTED] T5617.027
    
    [GRAPHIC] [TIFF OMITTED] T5617.028
    
    [GRAPHIC] [TIFF OMITTED] T5617.029
    
    Mr. Porter. Thank you, Mr. Walker.
    I have a question, Ms. Springer, and I am going to read the 
question because I think it is important as we frame the 
meeting today, because I think there is some misconceptions.
    First question, are Working for America Act provisions 
identical to the authorities provided DHS and DOD?
    Ms. Springer. The answer to that question, Mr. Chairman, is 
no. They are not identical, particularly in the labor-
management section.
    Those are the parts that are most notably being dealt with 
in the courts right now. So I don't want to specifically 
address them. But I can say that section is much, much smaller, 
much more limited in the Working for America Act draft bill 
that we proposed.
    The first section is--General Walker has sort of parsed it. 
That deals more with performance and pay. It is more similar, 
and that is the less controversial part.
    Mr Porter. Are we giving OPM authority to waive provisions 
in Title 5?
    Ms. Springer. No, we are not, and that is an important 
question to have clarification. The Congress is the only one 
that can change that statute. OPM just carries out what is 
there. So OPM would not have any ability to waive any part of 
Title 5.
    Mr. Davis of Virginia. Will any employee lose pay because 
of the conversion to the new pay system established under the 
authority of this act?
    Ms. Springer. The answer to that is no. No one's pay will 
be reduced. This is sort of a forward looking type of 
arrangement in the sense that from the point of conversion 
forward the pay increases, not the change in the level of pay 
preconversion versus post conversion, but the increases 
themselves may be at a different pace or a different amount 
than they would otherwise have been. But there will not be a 
reduction in pay as a result of converting to the new system.
    Mr. Porter. Now why should we move forward with this change 
prior to having all the results back from DOD and Homeland 
Security?
    Ms. Springer. I can give you a very good case in point, and 
I am going to answer this in two ways. One is as I mentioned, 
we have 90,000 employees that we have looked to as we have 
crafted this bill and the programs that they are under. These 
are programs, they are demonstration projects, they are 
programs that span across an entire organization. They have 
been functioning, some of them, as long as 25 years. That is 
where we've looked to inform the construct of this bill, 
particularly the performance and pay part. And we have done a 
lot of work there, a lot of surveying. There are things that 
are working very well. By and large the employees in those 
systems would not turn the clock back to what they were in 
beforehand.
    Let me give you a case in point. A couple days ago, less 
than a week ago, I had an e-mail that said to me, Director, we 
are losing someone that we just hired 2 weeks ago to OPM. They 
are going to go and take another position at an agency that is 
part of that 90,000 group because they could be in a pay band 
structure where they had more upside potential for their pay. 
And as a matter of fact, that agency right on the spot could 
pay them a five figure salary higher than--more in their salary 
than we were able to give them because of the constraints in 
the General Schedule. It happens time and time again. It is 
important for us to move on this thing.
    Mr. Porter. One last question for clarification, and I know 
since there is a lawsuit pending I want to be cautious in the 
question and of course in the answer as you feel is 
appropriate.
    But it is my understanding that the court injunction is 
regarding OPM regulations, DHS and OPM regulations, not the 
law, is that correct?
    Ms. Springer. I would have to find that answer out.
    That is correct.
    Mr. Porter. Thank you very much. I appreciate that it.
    Ms. Norton.
    Ms. Norton. Mr. Chairman, the court found that the 
regulations are in violation of the law. That is the problem. 
And in light of that problem, I must say, Ms. Springer, I said 
to staff to make sure that you get me this testimony. And got 
this testimony. It is very thin testimony, and yet you got an 
extraordinary opportunity and we have no information about how 
this opportunity--at least from you, about how this opportunity 
is being used. You have jurisdiction over about 2 million 
employees, and if you count DOD and HHS, that is running up 
900,000-some, almost a million. This is a kind of laboratory 
that frankly should be a perfect setting for you to come back 
here and tell us what the most recent experience has been. 
Nobody is going to leap into the next million without having 
some greater sense of what has happened with respect to the 
first million.
    Could I ask you, and for that matter, Mr. Walker, who talks 
about we have pay and classification experience, you must be 
talking about your agency, Mr. Walker. The whole reason that 
they are before us is because this is brand new, would be brand 
new for every section of the work force, beginning with those 
that we have given the authority to, not to mention the rest. 
But I would like to know what studies have been done, certainly 
by the GAO, and if the studies haven't been done, can you give 
us some idea of experience with these two agencies, which must 
have been a fertile ground to gather the kind of information an 
oversight committee needs before it makes the next leap and 
takes the whole work force with it.
    I tell you, I don't know about you and faith-based, but 
this is too big to put my faith in you or anybody in this 
government. And I think we deserve to know what has happened so 
far in great detail before you ask us to go the next step of 
the way, especially since you're already in litigation and you 
didn't even mention that and what you're going to do about 
that.
    Go ahead, Ms. Springer.
    Ms. Springer. Let me respond. There are several parts 
there. One thing I do want to say is obviously we are not 
trying to hide anything. We are not trying to give you a thin 
document. We have in fact had 18 detailed briefings. We have 
had 34 hours of briefings and with the House alone we have had 
7 hours of detailed briefings.
    Ms. Norton. Staff. Which staff?
    Ms. Springer. Minority, majority it was open, anybody was 
welcome.
    Ms. Norton. The purpose of this hearing is for the public 
record, to let the Members know what is happening, to let the 
public know what is happening. And I appreciate that you have 
told the staff what is happening. Can you tell us what is 
happening?
    Ms. Springer. Sure. I just want to say that it is--for 
starters we have not tried to hide anything. We have put this 
draft bill up on the Web sites. We have been very accessible to 
staff. And as you say, the purpose of the hearing, which we are 
very happy to have today, gives us more of a public forum to do 
that. But we have been out there--let me just expand on that.
    The briefings have been with unions, they have been with 
good government groups. They have been with employees that we 
have had--it has not just only been with staff but I mentioned 
staff specifically because----
    Ms. Norton. Ms. Springer, were these briefings about the 
studies or results from the changes Congress authorized and 
that you have begun to put in place in the two largest agencies 
in government? That is my question, not what were your 
briefings about.
    Ms. Springer. The briefings to a large degree were about 
this bill and they were also about the results of the programs 
that have been in place over the years. We have not briefed on 
the NSPS system because the final regs haven't even been 
published on that one yet. That is the DOD. So that is a work 
in progress, the final regs are in the process, they will be 
out in the Federal Registry. We will be more than happy to do 
discussions on that one, and even if there was an interest in a 
dedicated hearing on that, that obviously would be something we 
would welcome. But that has not been at the point where it has 
been--even the final regs have been public on that one.
    With respect to the DHS, once that got into court it really 
constrained our ability to comment publicly on the portions of 
that bill that are in question that are being dealt with in the 
court system. So those have not been the focal points of the 
briefings that we have done. Briefings have been more on the 
particular bill draft that we have submitted for those reasons.
    Mr. Porter. Mr. Walker, you had a comment?
    Mr. Walker. Ms. Norton, I would like to answer your 
question if I may. I would divide this bill into two parts, Ms. 
Norton.
    The first part would be classification, pay and 
performance. It is my understanding at the present point in 
time the Federal Government has 90,000 to 100,000 employees 
that are covered by broad banding systems and by more market-
based and performance-oriented compensation systems. And some 
of those go back, back to the 1980's, and it is not just GAO. 
As you know, we have 3,200 employees covered by that. So there 
is 90,000 to 100,000. I think there's a considerable amount of 
experience with regard to classification.
    Ms. Norton. I would like to draw your attention back to the 
1980's at the fairly higher levels of the agency involved.
    Mr. Walker. You are correct in saying that we need to look 
at the nature of the people covered by these and some are very 
technical and scientific.
    Ms. Norton. That is very important to say that, Mr. Walker.
    Mr. Walker. Absolutely, and I don't debate that at all. 
Here is my point. We have 90,000 to 100,000 of various levels 
and I think the other thing that this concept includes is 
conditions that would have to be met. By the way, these 
conditions were not in the DOD and the DHS legislation. These 
are very stringent conditions that would have to be met before 
anybody could move forward.
    Ms. Norton. Such as?
    Mr. Walker. Such as the conditions that you would have to 
be able to demonstrate that you have a modern, effective, 
credible, performance appraisal system that provided meaningful 
feedback that resulted in meaningful differentiation in 
performance, that you had adequate training to conduct to help 
people understand how to implement that system.
    Ms. Norton. Are you saying those are not in the law and 
should be?
    Mr. Walker. They are not in DHS or DOD. They are in the 
concept for this proposal. Again we don't have a bill. They are 
in a concept paper. And we have testified--frankly we have 
testified in connection with DOD and DHS that those would have 
been good to put in those bills but they weren't. But they are 
in this proposal.
    Second, in the second half I share your concern. The second 
half has to do with labor-management relations and adverse 
actions and appeals. And as I testified, we don't have as much 
as experience on that. And we believe that it may be prudent 
for the Congress to consider what happens as a result of DHS 
and DOD before you decide to move forward on that front.
    So the first part, classification, pay and performance 
management, we think there is enough experience, we think there 
is a way forward. And you can include work experience----
    Ms. Norton. There is enough experience from employees at 
fairly high grades and levels, technical employees, scientists, 
many of them professionals that would leave the government if 
you mess with them because they have, many, many options. There 
is enough experience with 100,000 employees to now jump in and 
take 2 million with us all at one time?
    Mr. Walker. Not all at one time. That is very, very 
important. What is very, very important is--and first I would 
be happy to provide for the record information that we have 
about the nature of that 90,000 to 100,000. I think it is a 
very legitimate question.
    But what is important about this is that this basically 
would be, as I understand it, conditional authorization. In 
other words, it would authorize agencies to move to a broad 
banding system. It would authorize agencies to move to a more 
market-based, performance-oriented compensation system. But 
they could not do it unless and until they demonstrated that 
they had met certain conditions--not based on promises--based 
on results. And therefore, as I say, I don't think you ought to 
have an arbitrary date, 2010 or anything else, for getting rid 
of the GS system because you don't know what people are going 
to meet those conditions. You're talking about a lot of people, 
and a lot of these agencies quite frankly have a lot of work to 
do before they would end up meeting those conditions in order 
to move forward.
    Mr. Porter. Thank you, Mr. Walker. I appreciate it.
    Ms. Springer. May I add one other thing as well? We have a 
report that we will be glad to provide for the record as well 
on the demonstration projects that cover these 90,000 to 
100,000. We have just finished it this week and would be glad 
to provide that for the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T5617.030
    
    [GRAPHIC] [TIFF OMITTED] T5617.031
    
    [GRAPHIC] [TIFF OMITTED] T5617.032
    
    [GRAPHIC] [TIFF OMITTED] T5617.033
    
    [GRAPHIC] [TIFF OMITTED] T5617.034
    
    [GRAPHIC] [TIFF OMITTED] T5617.035
    
    [GRAPHIC] [TIFF OMITTED] T5617.036
    
    [GRAPHIC] [TIFF OMITTED] T5617.037
    
    [GRAPHIC] [TIFF OMITTED] T5617.038
    
    [GRAPHIC] [TIFF OMITTED] T5617.039
    
    [GRAPHIC] [TIFF OMITTED] T5617.040
    
    [GRAPHIC] [TIFF OMITTED] T5617.041
    
    [GRAPHIC] [TIFF OMITTED] T5617.042
    
    [GRAPHIC] [TIFF OMITTED] T5617.043
    
    [GRAPHIC] [TIFF OMITTED] T5617.044
    
    [GRAPHIC] [TIFF OMITTED] T5617.045
    
    [GRAPHIC] [TIFF OMITTED] T5617.046
    
    [GRAPHIC] [TIFF OMITTED] T5617.047
    
    [GRAPHIC] [TIFF OMITTED] T5617.048
    
    [GRAPHIC] [TIFF OMITTED] T5617.049
    
    [GRAPHIC] [TIFF OMITTED] T5617.050
    
    [GRAPHIC] [TIFF OMITTED] T5617.051
    
    [GRAPHIC] [TIFF OMITTED] T5617.052
    
    [GRAPHIC] [TIFF OMITTED] T5617.053
    
    Ms. Norton. Thank you. That would be very helpful. Mr. 
Chairman, I do want to just note that the testimony that we 
received is very important if we are looking at writing a bill 
that might get through the Appropriations Committee and for 
that matter through the Congress, and that is Mr. Walker's 
testimony that a phased approach, a ``Show me'' approach, a 
condition-based approach, would be the most prudent.
    By the way, would you agree with that, Ms. Springer?
    Ms. Springer. Yes, and that is the way this act is set up.
    Ms. Norton. Do you think this act is--oh, you have only 
seen the concept because we are trying now to find out how to 
do it and I think that it is very, very important to make this 
palatable.
    Mr. Porter. As do I. Very compelling comments. Thank you.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman, and let me thank 
both of the witnesses here this morning and thank you, Mr. 
Chairman, for your continuing oversight in this very, very 
important area. It doesn't get a lot of public attention, but I 
think it is very important to the public and the quality of 
government that we have.
    Let me just first begin with breaking it conceptually into 
the two parts that Mr. Walker has divided it into, on the one 
hand the management reforms and pay for performance issue, on 
the other hand labor-management relations and the adverse 
action provisions of the bill.
    And a note on pay for performance. Again, the concept of 
pay for performance--we have been over this ground before--is 
something that I don't think anyone can oppose. People should 
be rewarded based on their ability to produce. The key is 
implementing that kind of system, and especially within the 
government context where you have lots of factors that are not 
present in the private sector context and you have many 
different potential masters. And I don't mean to pick on 
anybody but if you're talking about FEMA and Michael Brown and 
what that kind of message sends in terms of performance and the 
kind of individual needed in the job and the kind of experience 
they need in order to carry out their job, what kind of signals 
can that send out to their employees and can they really 
believe they are going to be evaluated based on a fair judgment 
and based on their experience and qualifications to do their 
job?
    Let me just ask Ms. Springer if you would agree with just 
in terms of approaching this major piece of legislation in a 
manageable way, one bite at a time, whether you would agree 
with Mr. Walker's suggestion that we might be better off taking 
this as two separate pieces; in other words, let's examine the 
pay for performance part and focus on that issue and not move 
forward with the other provisions that are in the bill. What 
would you think of that?
    Ms. Springer. I think that is an option that could be 
considered but having said that, I think that we have crafted 
the bill with the thought that the two pieces do go together, 
and we think that they both can be accommodated in a much, much 
reduced way from DHS.
    The one mistake we don't want to make is to say this is DHS 
revisited or NSPS revisited because that part is scaled down 
considerably. However, I personally, speaking for myself, think 
that is an option that you know could be looked at.
    Mr. Van Hollen. I just note with regard to labor-management 
provisions, I understand there are provisions in this bill that 
are not the same as DHS and the Department of Defense. On the 
other hand, as I understand, there are some provisions in this 
bill that are actually potentially more expansive. Mr. Walker 
mentioned the definition of emergency, which is, as I 
understand it, is the triggering definition for determining 
whether or not you're going to continue to follow the labor-
management provisions of the bill. And the definition of 
emergency is broadened to include, ``any situation involving or 
potentially involving an adverse effect on agency resources.'' 
It goes on to talk about increase in agency workload or any 
budgetary exigency caused in whole or in part by external 
authorities. I can't think of a single department in the 
Federal Government today that couldn't claim that they were in 
an emergency right now under that definition.
    If you could respond to that.
    Ms. Springer. Well, there are technical people here who 
could probably talk to the specific language better than I can, 
but the purpose of this hearing, the purpose of our work with 
you, with your staffs, is that we can refine those things in a 
way that deals with concerns that you have.
    If it is too broad, let's look at it. If it is not 
immediate enough--my understanding was that it was really 
intended to be for immediate situations where there is a need 
for immediate action, there isn't time to deliberate, what have 
you. But having said that, I am not the technical expert. But 
if there are things we need to refine, let's look at them. The 
idea was to get a draft act on the table so we could start to 
work together and get this thing refined.
    Mr. Van Hollen. I hear you.
    Mr. Walker. I agree it is too broad. And second, I think 
you have to think about, in coming up with a reasonable 
definition of what is an emergency, for what period of time is 
there an emergency. Is it envisioned that it is a limited 
period of time, or is it something that is defined so broadly 
that it could go on indefinitely? I think, you know, that is a 
very important area and a very problematic area.
    Mr. Van Hollen. And Mrs. Springer, I agree with you that 
part of this process is give and take. But the problem is when 
you put something in writing on the table like that it does 
send signals. You have to build trust to move forward with this 
kind of process. You have to build the trust of Federal 
employees who are about to be subjected to the new rules. And 
when you put on a piece of paper something that is just so 
broad it would encompass just about any agency today, it 
creates a more difficult environment to move forward.
    Mr. Chairman, if I can just ask one last question with 
respect to the phased in approach and the fact that you have 
the ``Show me'' test. Under the draft, or concept, what is--who 
are we showing? In other words, is this a certification that is 
going to be made by OPM as to whether or not the criteria had 
been met?
    Ms. Springer. Yes, that's right. I just want to add one 
other thing if I can with that emergency issue, I think 
hopefully we would all agree that there are legitimate 
emergencies in critical situations, assessable situations. I 
hope we're not saying that there is no such situation that 
could be addressed should we have a labor-management component 
to the bill.
    Mr. Van Hollen. I understand. It is this definition, as I 
say, it seems to reflect the current condition of every 
department in the Federal Government.
    Mr. Walker. Can I suggest, Mr. Van Hollen, that you are 
correct in noting that under this proposed draft legislation or 
proposal that OPM would do the certification. I would fully 
expect that the Congress would want GAO to monitor OPM's 
efforts and to report periodically with regard to the exercise 
of those.
    Mr. Van Hollen. I thank you for that. The red light was on 
so after the answer I wasn't sure but, Mr. Chairman, just on 
that point. Clearly, there's going to be a question about the--
I think from the Congress' perspective given the nature of 
this, if we were to move in this direction, it would absolutely 
be essential from our perspective to have GAO overseeing or 
monitoring the reporting on that.
    Mr. Porter. Thank you very much.
    Ms. Norton. May I ask one factual question?
    Mr. Porter. Yes.
    Ms. Norton. Ms. Springer, do you intend to appeal the 
Federal court decision striking down major portions of the 
Department of Homeland Security provisions on collective 
bargaining?
    Ms. Springer. I am not at liberty to comment. My counsel 
has told me not to comment on that case.
    Ms. Norton. I hope at the very least it leads to some 
thoughtful--whatever you do. Because now you're on your way to 
something that is probably going to just keep going because of 
litigation. I hope that you're not depending entirely on 
litigation but are looking closely at what the court said to 
see if there are things you can to do mitigate the possibility 
of future suits like this in the future. Thank you.
    Mr. Porter. Thank you. Thank you both very much. I 
appreciate you being here today. Just know, Mr. Walker, that 
there is a band on the hill with five Congressman, a bipartisan 
band. We need to work on that James Brown song.
    Mr. Walker. It is a great song.
    Mr. Porter. It is a great song. Thank you. Thank you both 
very much.
    We have six witnesses left to testify. Actually, panel 
three and four, and I think for the element of time, I'm going 
to try to bring all six up--I know we're a little limited for 
space--and possibly share the mics. So if Theresa, Max Stier, 
Scott Gould, Mr. Styles, Mr. Gage, and Ms. Kelley--I realize 
there are three chairs so that's going to be a real trick. 
We're going to bring a couple more chairs up. Maybe we'll take 
about a 5-minute recess while we get things situated. Thank 
you.
    [Recess.]
    Mr. Porter. I'd like to bring the meeting back to order. 
Some of the witnesses came late. I'd like to ask once again 
that we do the witness and the oath. For those who weren't 
here, is there anyone that--Colleen, you weren't here. Anyone 
else that wasn't here? Please, if you'd raise your right hands.
    [Witnesses sworn.]
    Mr. Porter. Please be seated. I'd also like to acknowledge 
that fellow Member of Congress, Mr. Flake from Arizona, had 
planned on being with us today, was unable to be here, and, 
without objection, I'd like to enter his comments into the 
record. Thank you.
    Let's begin with our third and fourth panel.
    We'll start with Theresa Shaw, the Chief Operating Officer 
of Federal Student Aid, U.S. Department of Education. Welcome.

STATEMENTS OF THERESA S. SHAW, CHIEF OPERATING OFFICER, OFFICE 
   OF FEDERAL STUDENT AID, U.S. DEPARTMENT OF EDUCATION; MAX 
 STIER, PRESIDENT AND CEO, PARTNERSHIP FOR PUBLIC SERVICE; W. 
SCOTT GOULD, VICE PRESIDENT, PUBLIC SECTOR STRATEGY AND CHANGE, 
 BUSINESS AND CONSULTING SERVICE, IBM GLOBAL SERVICES; MICHAEL 
 B. STYLES, NATIONAL PRESIDENT, FEDERAL MANAGERS ASSOCIATION; 
     JOHN GAGE, NATIONAL PRESIDENT, AMERICAN FEDERATION OF 
     GOVERNMENT EMPLOYEES; AND COLLEEN M. KELLEY, NATIONAL 
          PRESIDENT, NATIONAL TREASURY EMPLOYEES UNION

                  STATEMENT OF THERESA S. SHAW

    Ms. Shaw. Good morning. Good morning. Much better.
    Good morning, Mr. Chairman, members of the subcommittee. 
Thank you for inviting me to testify today. I'm pleased to be 
here representing Secretary Spellings, the Department of 
Education, and Federal Student Aid, to share some of our 
successes in transforming our work force, elevating our 
performance, and delivering tangible results.
    Federal Student Aid has operational responsibility for 
oversight in the administration of all of the Department's 
Federal student financial assistance programs, and, as one of 
the government's few performance-based organizations, upholds 
high standards of operational efficiency, innovation, customer 
care and individual and organization performance. We are also 
provided certain managerial flexibilities and authorities over 
personnel management, budget, and procurement activities.
    Prior to our establishment as a performance-based 
organization, the Federal Student Aid programs were plagued 
with oversight and management challenges, high default rates, 
and customers who were not happy with the service they 
received.
    In 1990 the Government Accountability Office found the 
Federal Student Aid programs at high risk to fraud, waste, 
abuse, and mismanagement. Financial management and internal 
controls on the programs were largely nonexistent, and 
unqualified audit opinions were not attainable. In 1990, 
students loan default rates had hit a high of 22.4 percent. 
Customer satisfaction scores were not even measured. Federal 
Student Aid with its specific purposes, authorities, and 
flexibilities was created to effect change, and we are 
transforming our work force and culture to be highly effective.
    Mr. Chairman, I believe that delivery of results is the 
true measure of success, and I'd like to share how we have used 
our personnel flexibilities and our progress on our work force 
and culture transformation. Our hiring flexibilities allow us 
to fill critical and time-sensitive resource needs faster and 
to pay salaries closer to market rates for similar positions in 
the private sector. With this flexibility, our average period 
to hire is 34 calendar days versus 200 calendar days for the 
most recently Federal hired career staff subject to the usually 
competitive processes. We have used our hiring flexibility to 
hire staff with needed skill sets obtained in the private 
sector, to augment the skill sets of our Federal career staff. 
This marriage of private sector and Federal career skills, 
experience, and knowledge has been a great success. This hiring 
flexibility only applies to a small portion of our work force. 
Most positions are filled by General Schedule and Senior 
Executive Service staff and subject to the Title 5 competitive 
process. We recently worked with the Partnership for Public 
Service to identify a better, faster process for recruiting and 
hiring qualified Federal career staff.
    If you take a look at the chart on the left, the standard 
staff hiring process had 114 steps, with more than 45 handoffs. 
In comparison, our new streamlined process eliminates nearly 50 
percent of the steps. The Working for America Act would provide 
even greater efficiencies to this process. We have not focused 
on the hiring process alone to transform our work force and 
culture. We have strengthened performance management and 
aligned individual performance with delivery of results. We 
have a process that recognizes and rewards differences in 
performance.
    The results are in for us. In January 2005, the Government 
Accountability Office removed the Federal Student Aid programs 
from its high-risk list. In March 2005, we achieved all green 
status in improved financial performance on the President's 
management agenda score card. The Secretary recently announced 
a new all-time low default rate, 4\1/2\ percent, and we have 
created innovative contract solutions to optimize the 
investment of taxpayer dollars and the return on that 
investment, saving taxpayers an estimated $1\1/2\ billion on 
two contracts alone.
    Independent customer satisfaction scores for our flagship 
product, the electronic Free Application for Federal Student 
Aid, are comparable to UPS, Mercedes Benz, and Amazon.com. Our 
high standards and expectations for performance, our ability to 
hire, manage, develop and reward employees, while being 
respectful of our collective bargaining obligations, have 
enabled us to achieve these and many other accomplishments.
    However, we can do more. I envision even greater results 
with flexibility such as those described in the Working for 
America Act. Competitive market-rate compensation and pay 
increases, driven by performance and delivery of results, will 
allow agencies to attract and retain the highest caliber staff. 
Managers who are equipped to properly set and evaluate job 
performance in collaboration with employees will ensure 
fairness in the process. Trained managers will deal effectively 
with poor performance. This is how the private sector works, 
and it works for the private sector.
    I'm honored to be part of Secretary Spellings' team. On 
behalf of the Secretary, the Department, and Federal Student 
Aid, thank you for the opportunity to speak today. And I'd be 
happy to answer any questions.
    Mr. Porter. Thank you, Ms. Shaw. Congratulations. I'd like 
to know what the 40th orange dot is.
    Ms. Shaw. One of the handoffs.
    Mr. Porter. Thank you very much and congratulations. 
Appreciate your comments.
    [The prepared statement of Ms. Shaw follows:]
    [GRAPHIC] [TIFF OMITTED] T5617.054
    
    [GRAPHIC] [TIFF OMITTED] T5617.055
    
    [GRAPHIC] [TIFF OMITTED] T5617.056
    
    [GRAPHIC] [TIFF OMITTED] T5617.057
    
    [GRAPHIC] [TIFF OMITTED] T5617.058
    
    [GRAPHIC] [TIFF OMITTED] T5617.059
    
    Mr. Porter. Mr. Stier.

                     STATEMENT OF MAX STIER

    Mr. Stier. Thank you. Thank you very much, Chairman Porter, 
Congresswoman Norton, Congressman Van Hollen. It's a great 
pleasure to be here. Five minutes go quickly so I will speak 
quickly.
    I want to recognize the great work FSA is doing under Terri 
Shaw's leadership. It's really extraordinary stuff and it's an 
honor to work with her.
    We start from the proposition that you started with, 
Chairman Porter, and that is the status quo is not good enough. 
We can and must do better for the Federal work force and for 
the American people. And one important piece of evidence--this 
I think comes from the employee surveys that you yourself 
cited, just to take three quick snapshots. Less than half say 
they have a high level of respect for their organization's 
leaders and managers. I would point out that this is across the 
board, from top to bottom on the management side. Only one-
third believe that the leaders generate high levels of 
motivation and commitment in the work force, and less than one-
third agree that differences in performance are recognized in a 
meaningful way. I would note that is 25 points lower than the 
private sector benchmark we're looking at. This is a big 
problem. It's a big problem whether we're looking at this 
legislation, a big problem we need to focus on beyond just this 
legislation.
    We believe that the Working for America Act can be part of 
the solution and ultimately needs to be a part of that solution 
but that system changes alone will not fix the problem. And our 
first order of business needs to be making sure that we focus 
on the overall capacity of Federal agencies and Federal 
managers to better manage and create performance-oriented 
organizations. We believe we need to invest now to create that 
management capacity because the consequences are both 
significant externally and internally for the Federal 
Government itself.
    The Working for America Act, as has been pointed out by 
Congresswoman Norton's questions and Congressman Van Hollen's 
questions, is the right approach. It's very different from the 
reforms we saw for DHS and DOD. It is a ``show me'' 
proposition, as Comptroller General Walker said, and 
essentially says that you need to prove that you're ready 
before you're enabled to be given these extra flexibilities.
    That is the right approach, but it's also a very important 
process, we believe, because you can make these changes, get 
agencies ready, but ultimately the kinds of flexibilities that 
are then available to these agencies will be very valuable. One 
of them that is rarely focused on that deserves a little 
attention is the issue of market sensitivity. It's not just 
performance sensitivity that we're after, but the Federal 
Government needs to better compete in the overall marketplace 
for talent, it needs to be able to offer the kinds of 
compensation levels that are going to be able to attract the 
very best talent in different geographic regions around 
different occupations at different levels. And that's one of 
the provisions the Working for America Act provides for and we 
think is critical.
    We're taking the committee at its word here, and we're 
offering several amendment suggestions as well. We believe that 
there are three areas that we can focus most helpfully on in 
terms of improving this legislation. First and most 
importantly, focusing on that management issue that I just 
discussed, we provide some language in our testimony that's 
appended that obviously is draft language; but the basic 
concept is this legislation would be improved if we understood 
better what is it that we are looking for in management and 
government. And we asked OPM to essentially create the kind of 
core competencies that we believe will be necessary for Federal 
managers to succeed and then, very importantly, require 
agencies to conduct audits, both of their overall capacity to 
manage, but also against individual managers, and then develop 
plans that help them identify ways to improve their management 
capacity, again, both holistically as an agency and also with 
individual managers. We believe that component should be made 
part of the certification procedure and would be critical. We 
also believe that kind of work can and should be done here and 
now even outside the context of this legislation.
    Second, we think that there is an increased need for focus 
to be paid upon the HR function itself. If you look at the 
Clinger-Cohen Act which came out of this committee, one of the 
very important provisions was it focused on the capacity of 
financial--I'm sorry, IT management staff, to be able to do 
their job and do it right. The HR function is facing increasing 
pressure today in the Federal environment. We need HR managers 
that are HR professionals that are going to be able to provide 
service to the rest of the agencies in ways that are much, much 
more demanding than previously, and they have faced an enormous 
cut over time. If you look at the numbers, you have seen 20 
percent reduction in HR professionals during the 1990's and we 
believe that therefore the provision we provide there will help 
in that regard.
    Third and finally, we think looking at employee attitudes 
is going to be essential in understanding the consequences of 
these changes and whether we're getting them right, and 
therefore that the survey requirements that are currently part 
of law are very important, that the provision that's provided 
in this draft that would limit some of or provide opportunities 
for limiting the survey requirements should be itself 
restricted to focus on the problem that we believe is 
legitimate, and that is the one I'm focusing on in making sure 
that small agencies have the option or, rather, that the OPM 
Director has the option of limiting their obligation for 
surveys on an annual basis.
    Thanks; 5 minutes.
    Mr. Porter. Good job. I appreciate the fact that you have 
provided for us some suggested improvements and/or changes, and 
I would encourage all those that are testifying today that as 
you have ideas and suggestions, by providing them as you have, 
this is very beneficial to the process. Thank you.
    [The prepared statement of Mr. Stier follows:]
    [GRAPHIC] [TIFF OMITTED] T5617.060
    
    [GRAPHIC] [TIFF OMITTED] T5617.061
    
    [GRAPHIC] [TIFF OMITTED] T5617.062
    
    [GRAPHIC] [TIFF OMITTED] T5617.063
    
    [GRAPHIC] [TIFF OMITTED] T5617.064
    
    [GRAPHIC] [TIFF OMITTED] T5617.065
    
    [GRAPHIC] [TIFF OMITTED] T5617.066
    
    [GRAPHIC] [TIFF OMITTED] T5617.067
    
    [GRAPHIC] [TIFF OMITTED] T5617.068
    
    [GRAPHIC] [TIFF OMITTED] T5617.069
    
    [GRAPHIC] [TIFF OMITTED] T5617.070
    
    [GRAPHIC] [TIFF OMITTED] T5617.071
    
    [GRAPHIC] [TIFF OMITTED] T5617.072
    
    Mr. Porter. Mr. Gould.

                  STATEMENT OF W. SCOTT GOULD

    Mr. Gould. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to offer joint testimony today. 
I'm a vice president at IBM Corp., and my colleague, Professor 
Linda Bilmes, is a member of Harvard University's faculty. 
Together we've been working on a book entitled, ``The People 
Factor'' for Brookings Institution, to be published next year. 
We're happy to be here this morning to share with you some of 
our preliminary findings and conclusions at this stage of our 
research.
    I'd like to offer three main points this morning. First, we 
agree with those who advocate major changes to the current 
Federal personnel management system. The reasons are 
straightforward. It no longer fits much of today's government 
work force. It defers managers from bringing in the talents 
government needs, it chokes the system with red tape, and in 
some cases it creates counterproductive competition between 
government agencies for certain personnel.
    While we agree with these arguments, in our book we have 
tried to put forward a positive rationale for why the Federal 
work force will perform better if it is reformed based on our 
empirical findings. We have developed a method to calculate the 
benefits to government of personnel reform, using a new formula 
we call return on taxpayer investment [ROTI]. We have also 
developed a method to estimate the cost of implementing a 
modernized personnel system and we believe the benefits will 
outweigh the costs by a wide margin.
    My second major point: For the most part we agree the WAA 
contains many necessary changes to the Federal personnel 
system. However, these changes alone are not enough. As 
discussed more fully in our written testimony, we suggest the 
following elements are necessary in the system for managing the 
21st century work force: a workable pay-for-performance system, 
significant management training and education, a market-
responsive competency-based job classification system to 
replace the General Schedule system, improved hiring practices, 
a secure and reliable funding source to support successful 
implementation, and finally, the means for easier movement of 
talented individuals between the public and private sectors.
    My third main point: We encourage those responsible for 
modernization of the personnel system to anticipate and prepare 
for the substantial implementation challenges posed by the 
Working for America Act. This is the area that we want to 
emphasize most in our remarks this morning, the need to take 
reasonable steps in advance to enable government managers to 
implement successfully the reforms envisioned by the proposed 
legislation.
    These steps should include the following: an active 
consultation and involvement strategy, two-way dialog. Active 
involvement and participation by managers and employees at all 
levels in the organization, in my view, are essential.
    No. 2, extensive training. Training people on their new 
duties and responsibilities is essential to build competence, 
and, I would say, instill confidence in the new system.
    Three, employing a step-by-step change management process, 
including the use of new systems.
    Four, dedicated resources to support successful 
implementation of a new personnel system. This will require 
sufficient dedicated resources from inside government and, in 
most cases, guidance from experts who have done this before. 
This is not a time for learning on the job or undercapitalized 
efforts.
    Finally, time to effect the change. In addition to 
extensive training and coaching, Federal managers will need 
time to adapt, and so will our employees.
    In conclusion, Mr. Chairman, I'd like to associate myself 
with your introductory remarks. We must remember that public 
servants make possible the millions of individual transactions 
and relationships that serve the people of our country. They 
provide the essential capacity of government to serve its 
citizens and they implement largely the laws that Congress 
creates.
    The change envisioned by this proposed legislation asks a 
lot of our government employees. In return, leadership must do 
its utmost to earn and keep mutual trust, respect, and 
accountability with these employees in order to succeed. This 
must include consultation with all the parties, extensive 
training, resources to fund the effort, and time to make a 
successful adjustment to the new system so that we do not 
jeopardize mission performance along the way. Thank you.
    Mr. Porter. Thank you very much. When will you your book be 
completed?
    Mr. Gould. In the summer.
    Mr. Porter. Thank you very much.
    [The prepared statement of Mr. Gould follows:]
    [GRAPHIC] [TIFF OMITTED] T5617.073
    
    [GRAPHIC] [TIFF OMITTED] T5617.074
    
    [GRAPHIC] [TIFF OMITTED] T5617.075
    
    [GRAPHIC] [TIFF OMITTED] T5617.076
    
    [GRAPHIC] [TIFF OMITTED] T5617.077
    
    [GRAPHIC] [TIFF OMITTED] T5617.078
    
    [GRAPHIC] [TIFF OMITTED] T5617.079
    
    [GRAPHIC] [TIFF OMITTED] T5617.080
    
    [GRAPHIC] [TIFF OMITTED] T5617.081
    
    [GRAPHIC] [TIFF OMITTED] T5617.082
    
    Mr. Porter. Mr. Styles, president, Federal Managers 
Association.
    Pardon me. Before you begin, I would exercise caution for 
those folks on the labor side in that you have a lot of allies 
here today, and you're hearing a lot of comments that probably 
concur with some of your thoughts. Having read some of the 
backup material, I would encourage you to temper some of those 
thoughts because you have a lot of supporters here today, and 
just exercise a little bit of caution.
    Mr. Styles.

                 STATEMENT OF MICHAEL B. STYLES

    Mr. Styles. Mr. Chairman, Ms. Norton----
    Mr. Porter. I don't believe your mic is on just yet.
    Mr. Styles. Is that good?
    Mr. Porter. That's good. Thank you.
    Mr. Styles. Good morning, Mr. Chairman, Ms. Norton, 
Congressman Van Hollen. It's an absolute pleasure to be here 
with you.
    I had remarks that I was going to read that were excerpts 
from my testimony, but given the fact that we may not have 
enough time to answer questions in the fullest, I'd like to at 
least point to some issues that I think are important that 
would be part of a question-and-answer period perhaps.
    I appreciate the comments that have been made thus far, but 
I also think that it should be noted that as we've moved into 
this HR modification process in all agencies, as we talk about 
the Working for America Act, to continue on with the things in 
DHS and DOD, I think we've started out in a negative mode. What 
we've started to do is talk about how the managers in the 
Federal work force can't manage effectively, how the work force 
has an awful lot of nonperforming individuals who get increases 
automatically. I think these are fallacies, and I think that we 
should readdress our focus and we should start to approach this 
process with a positive rationale for the development of a new 
system, taking into account those negative aspects of the 
systems that we're working under today.
    First of all, I believe in the empowerment of managers and 
employees so that we can bring about innovative changes within 
our work forces. I believe that we have been involved, and you 
just watched a cycle time management demonstration right behind 
me that I thought was excellent, but those of us who have been 
managing in the Federal work force have used cycle time 
management and total quality processes for years. So I think 
it's important that the reputation and the image of the Federal 
employee is recognized for what it is. We touch everything that 
happens every day in America, and we do a darn fine job at 
that, and I applaud everybody in this audience for their job 
and I thank you for your original comments.
    We also heard from Congressman Van Hollen. He said that we 
have to build trust if we're to move forward. That can only be 
done if we have a collaborative effort that's being put forward 
by the labor folks, management, the legislature, and the 
executive branch.
    Certain concerns that we have as we move into this new era. 
We have myths that have to be debunked. The private sector does 
not manage better than the Federal sector in all instances. We 
can learn from each other in very many ways. Each agency can 
learn from each other.
    Workers are more efficient in the private sector? I don't 
think so. I think, once again, we have a balance here that we 
have to look at. Our workers are pretty darn good. FMA 
represents managers and supervisors across 35 different 
agencies, and I've had tremendous pleasure over time, 16 years 
of that time as president of the FMA, to go to all of these 
agencies and see what we do in America, day in and day out, and 
I am very proud of what we accomplish.
    Points to bring out before my 5 minutes are up. If we are 
going to move forward, obviously funding for training is 
essential. When I talk about training, training for bringing 
into place new HR systems. And, by the way, we need training 
for the HR systems that are in place. We haven't had enough 
training, it isn't ongoing, and one of the reasons is because 
funding hasn't been provided for us. That funding, in our eyes, 
should be fenced. You should not be able to go out and use 
training funds as a discretionary fund for some other aspect of 
business. Agency oversight of expenditures has to be taken into 
account and tracking of training so that we ensure all 
personnel are trained. We can't allow those training dollars to 
be stolen from--and I have here, Peter to pay Paul.
    What we've already seen in demonstration programs across 
the country is the fact that we haven't given them extra money 
to provide training, we've just given them training dollars. 
And now suddenly they don't have the same amount of funding for 
safety and security training, for instance.
    Pay for performance. We already have pay for performance, 
but people don't seem to recognize that. It's kind of an ironic 
thing. We do have a process to provide people with--my time is 
running here. OK.
    In order to be effective in pay for performance, we have to 
make sure that we fund for the raises, whether we're in our 
system or another system, and I think it's a fallacy, as I said 
before, to think that folks automatically get pay raises, 
because nonperformers don't have to get a pay raise in our 
current system either.
    Do I think that there are merits to our proposal, Working 
for America Act? I do. I think market-based pay is essential if 
we're to move forward and be competitive in the marketplace. 
But, just to quickly say this before time goes out here, an 
example, what we do now is take a GS-11 and GS-12 and make a 
band out of it. We take a 13 and 14, make a band out of it.
    I thank you very much. Maybe I'll get a question on that 
later to finish that out. Thank you for your time.
    Mr. Porter. Thank you, Mr. Styles. I appreciate your 
comments. The success of the current system or the future 
system rests in your hands as long as it's funded properly and 
you have the proper training to work with. So I concur.
    [The prepared statement of Mr. Styles follows:]
    [GRAPHIC] [TIFF OMITTED] T5617.083
    
    [GRAPHIC] [TIFF OMITTED] T5617.084
    
    [GRAPHIC] [TIFF OMITTED] T5617.085
    
    [GRAPHIC] [TIFF OMITTED] T5617.086
    
    [GRAPHIC] [TIFF OMITTED] T5617.087
    
    [GRAPHIC] [TIFF OMITTED] T5617.088
    
    [GRAPHIC] [TIFF OMITTED] T5617.089
    
    [GRAPHIC] [TIFF OMITTED] T5617.090
    
    [GRAPHIC] [TIFF OMITTED] T5617.091
    
    [GRAPHIC] [TIFF OMITTED] T5617.092
    
    [GRAPHIC] [TIFF OMITTED] T5617.093
    
    [GRAPHIC] [TIFF OMITTED] T5617.094
    
    [GRAPHIC] [TIFF OMITTED] T5617.095
    
    [GRAPHIC] [TIFF OMITTED] T5617.096
    
    [GRAPHIC] [TIFF OMITTED] T5617.097
    
    [GRAPHIC] [TIFF OMITTED] T5617.098
    
    [GRAPHIC] [TIFF OMITTED] T5617.099
    
    Mr. Porter. Mr. Gage is the president of the American 
Federation of Government Employees.

                     STATEMENT OF JOHN GAGE

    Mr. Gage. Thank you, Mr. Chairman, and Ms. Norton and Mr. 
Van Hollen.
    Mr. Chairman, you have entitled today's hearing, ``Mom, 
Apple Pie, and Working for America: Accountability and Rewards 
for the Federal Workforce,'' and asked me to comment on the 
proposals.
    Working for America, mom, apple pie--based upon our union's 
experience with the congressional debates over personnel 
changes in the Departments of Homeland Security and Defense, we 
certainly hope that the proponents of this legislation do not 
mean to portray those who might oppose it as working against 
America in an opposition to mom and apple pie. We certainly 
hope that a reasoned discussion of the merits will take place 
and that one's position on pay for performance and the 
destruction of union rights and due process will not be framed 
as yet another measure of loyalty and patriotism.
    Should Federal employees be forced to compete against their 
co-workers for a salary adjustment? Should Federal employees 
have to wonder from year to year whether a supervisor might 
decide he or she needs a pay cut?
    Mr. Porter. Excuse me, Mr. Gage. If I may interrupt for a 
moment. I personally take exception to those comments. And as 
an individual that for 20-plus years has worked closely with 
the employees of local, State and Federal Government, I take 
exception when you would comment that we be against those and 
would not believe that they're American. So I take exception to 
that. Please understand this committee is here to have a fair 
hearing on the proposed structure of pay for performance, or 
whatever it is that we conclude at the end of the day. But, 
please, I do take exception.
    Mr. Gage. Thank, you Mr. Chairman.
    Mr. Porter. Excuse me, Mr. Gage. As for the balance of my 
committee and this Congress, there are people that are working 
very hard, trying to work with you to make sure that 
employees--we have the best and brightest that can take care of 
our customers, and that's the taxpayers.
    Mr. Gage. With all due respect, Mr. Chairman, we've been 
through this before with Homeland Security and DOD. I just want 
to note that we didn't think those discussions were very fair. 
And I do appreciate that this will be different, but I thought 
it would be appropriate that we mention that because we have 
been through it.
    Mr. Porter. Again, Mr. Gage, we have a meeting later on 
today, and I think we can finish this discussion at 2 o'clock. 
On behalf of this body and this committee I do take exception 
to those comments.
    Mr. Gage. Thank you.
    Should Federal employees be prevented from access to their 
union-negotiated agreement procedures when they have evidence 
that a supervisor's evaluation of his performance is 
inaccurate? Should Federal employees be denied to have an 
unfairly imposed penalty overturned after an unbiased third 
party has decided the penalty was unwarranted? Should Federal 
employees be forced to work as probationary employees for 3 
full years, without any rights on the job at all? And should 
Federal employees who work for the Federal Government be forced 
to trade a pay system that sets their salaries according to 
objective factors such as job duties and responsibilities, and 
adjust those salaries according to objective market data for 
one in which supervisors decide their salaries based on 
personal assessments of their personal qualities or 
competencies? Should these employees trade salary adjustments 
based on data collected by the Department of Labor's Bureau of 
Labor Statistics for so-called market surveys conducted at the 
discretion of local management by whatever private outfit the 
manager chooses? And should Federal employees who vote for 
union representation and pay union dues be denied the right to 
collective bargaining on anything except issues management 
decides are foreseeable, substantial, and significant in terms 
of impact and duration, including such issues important to 
every employee, as work schedules, travel, overtime, fair 
promotions, career development and training?
    Our answer to each of these questions is an unequivocal no. 
And that is why we urge you to reject the proposed legislation.
    The employees AFGE represents want their voices to be heard 
in the development of any new pay system, especially on 
fundamental issues such as the classification methods, criteria 
and systems structure, the way base pay is set and adjusted, 
and the rules of pay administration, including policies and 
procedures for something as complex as pay for performance.
    The administration's draft legislation extinguishes the 
voice of workers who would actually be paid under the new 
system. There is no provision for any collective bargaining at 
all with regard to the development of the new system, despite 
the fact that, across the board, participants in demonstration 
projects maintain the only way such systems have any degree of 
legitimacy, support, or fairness is if these issues are 
addressed in collective bargaining and worker protections are 
written into a fully enforceable collective bargaining 
agreement.
    The administration's bill is not about either rewards or 
accountability; indeed, it would eliminate several mechanisms 
for holding agency managers and political appointees 
accountable for how they treat the Federal work force in terms 
of the way that work force is selected, retained, disciplined, 
terminated, managed, and paid.
    Although the administration contends that the merit system 
principles will be upheld if its legislation is enacted, 
there's almost no way for Federal employees or others to obtain 
information to confirm or disprove this.
    Mr. Chairman, I think what I'd like to conclude on is that 
we think there can be changes in this system. We have suggested 
changes in this system. But for this system to have any 
credibility and be transparent, taking away union rights, 
employee rights, Civil Service protection, starts off on the 
wrong foot. And I hope
that in further discussions we can make this a much more 
positive experience for Federal employees instead of what it is 
being seen out there by Federal employees now. Thank you, sir.
    Mr. Porter. Thank you, Mr. Gage.
    [The prepared statement of Mr. Gage follows:]
    [GRAPHIC] [TIFF OMITTED] T5617.100
    
    [GRAPHIC] [TIFF OMITTED] T5617.101
    
    [GRAPHIC] [TIFF OMITTED] T5617.102
    
    [GRAPHIC] [TIFF OMITTED] T5617.103
    
    [GRAPHIC] [TIFF OMITTED] T5617.104
    
    [GRAPHIC] [TIFF OMITTED] T5617.105
    
    [GRAPHIC] [TIFF OMITTED] T5617.106
    
    [GRAPHIC] [TIFF OMITTED] T5617.107
    
    [GRAPHIC] [TIFF OMITTED] T5617.108
    
    [GRAPHIC] [TIFF OMITTED] T5617.109
    
    [GRAPHIC] [TIFF OMITTED] T5617.110
    
    [GRAPHIC] [TIFF OMITTED] T5617.111
    
    [GRAPHIC] [TIFF OMITTED] T5617.112
    
    Mr. Porter. Ms. Kelley. Save the best for last. Appreciate 
your being here today.

                 STATEMENT OF COLLEEN M. KELLEY

    Ms. Kelley. Thank you, Mr. Chairman, Ms. Norton, Mr. Van 
Hollen.
    Mr. Porter. I don't think you're on just yet, your mic.
    Ms. Kelley. Does that work?
    Mr. Porter. That's working. Thank you.
    Ms. Kelley. Can you hear me now?
    In anticipation of the proposal from the administration, I 
have been talking to NTU members across the country of what we 
expected would be in this proposal, and I can tell you that 
they are very concerned and opposed to many of the provisions.
    In anticipation of this hearing, we conducted a survey of 
our members just over the past 2 days, and I wanted to share 
with you the results of the survey.
    We have a chart over here. Our survey shows conclusively 
that mom and apple pie lovers who work for the Federal 
Government are overwhelmingly opposed to the proposal that is 
being put forward that would change the personnel system across 
the government.
    NTEU has serious concerns and objections to the 
administration's proposed governmentwide changes, and they fall 
into two main categories: The first is that despite the 
administration's comments to the contrary, the proposal would 
make numerous, substantial, and detrimental changes to employee 
rights in the areas of collective bargaining and due process.
    And, second, the proposed pay system is unacceptable on 
several grounds, including the fact that it is not seen as fair 
or transparent, nor has it been tested.
    Employees who perform superbly will have no reliable 
expectation of pay increases. It is excessively complex and 
will require huge increases in funding to administer. Its 
references to holding managers accountable have no foundation 
in the statutory language, and it will thwart rather than 
promote the teamwork that is necessary to advance the missions 
of the agencies.
    With regard to the labor management provisions, there have 
been a number of discussions already around the new definition 
of emergencies. I would just note that the current law already 
provides great latitude to agencies to act without regard to 
collective bargaining obligations in emergencies. NTU does not 
object to that. What we do object to are the new definitions 
that have been discussed that were read from the record by Mr. 
Van Hollen, and, I would also add, one other set of language in 
here. It talks about the agencies' ability to preclude 
bargaining when they are preparing for, practicing for, or 
preventing any emergency. Now it seems to me if you are 
preparing, preventing, or practicing for, you are not in an 
emergency; and therefore, this language should not apply.
    The administration's proposal also limits employee due 
process rights in a number of significant ways. Just one 
example is a new standard that is being proposed for the 
mitigation of penalties by the Merit Systems Protection Board. 
Today, if the MSPB finds a penalty unreasonable, it can direct 
it be changed. This new bill would change the standard to 
totally unwarranted, rather than unreasonable, and this 
proposal is very similar to language that we see in the DHS 
regulations, and that language is wholly without justification.
    Now as we all know, that provision has been struck down by 
the U.S. District Court in NTEU et al. v. Chertoff. I find it 
hard to believe that the administration wants to pursue this 
provision when one so similar has already been ruled illegal.
    The administration's bill would also expand the untested 
and complex pay model from DHS and DOD before it has ever been 
implemented or tested in these agencies, and there is no 
evidence that this model will increase recruitment, retention, 
or performance. And in fact, similar models have shown negative 
results.
    At the IRS, while employees represented by NTEU are not 
covered by a pay banding system, the managers there are, and 
the IRS hired the Hay Group to do an evaluation of that system 
and this is what they found. Here are the results: 76 percent 
of covered employees felt the system had a negative or no 
impact on their motivation to perform their best; 63 percent 
said it had a negative or no impact on the overall performance 
of senior managers; only 25 percent of senior managers agreed 
that the system was fair, and increased organizational 
performance was not attributable to the system.
    Now, under the administration's proposed pay system, there 
will be many changes in how adjustments of any kind will be 
provided to employees. There are a lot of new terms to be 
learned, range rates and maximums and minimums, and there is a 
lot of language in the proposal that says the director may 
establish this or the director may provide that pay raise. But 
at the end of the day, when you apply this new language, it is 
very likely that an outstanding employee could receive no 
locality adjustment because their occupation was not given an 
increase. Because of the new definitions around pay pools and 
the authority of the director, who may do this or may do that, 
it is very possible that top performance would not receive a 
pay performance or a performance pay adjustment because their 
pay or their occupation may be determined not to have 
contributed significantly to the mission of the agency, even 
though they are a top performer in their occupation and doing 
what they need to do to excel.
    Now, assuming there is adequate funding to pay for 
performance increases, which I think is questionable at best, 
there are a lot of questions about managers who are having 
difficulty applying the current structured system today and 
having to move to a more vague, undefined system that employees 
will have no confidence in.
    If I could just summarize for a few seconds here, I would 
suggest that the things NTU and our members believe are 
important to the success of the agencies and a new system are 
leadership; that rules and systems don't motivate people; 
leaders do; opportunities for employees to have input into 
decisions that affect them and the functioning of their 
agencies--they have good ideas that are currently being 
ignored; and a fair compensation that has credibility among 
employees, promotes teamwork, is adequately funded and is not 
administratively burdensome, as is being defined in this new 
system.
    So unfortunately, we do not see the system as meeting these 
standards. But, again, I very much welcome the opportunity to 
appear before you today, look forward to working on changes 
that can be made that would be fair and appropriate, and to 
answer any questions you might have. Thank you.
    Mr. Porter. Thank you very much.
    [The prepared statement of Ms. Kelley follows:]
    [GRAPHIC] [TIFF OMITTED] T5617.113
    
    [GRAPHIC] [TIFF OMITTED] T5617.114
    
    [GRAPHIC] [TIFF OMITTED] T5617.115
    
    [GRAPHIC] [TIFF OMITTED] T5617.116
    
    [GRAPHIC] [TIFF OMITTED] T5617.117
    
    [GRAPHIC] [TIFF OMITTED] T5617.118
    
    [GRAPHIC] [TIFF OMITTED] T5617.119
    
    [GRAPHIC] [TIFF OMITTED] T5617.120
    
    [GRAPHIC] [TIFF OMITTED] T5617.121
    
    [GRAPHIC] [TIFF OMITTED] T5617.122
    
    [GRAPHIC] [TIFF OMITTED] T5617.123
    
    [GRAPHIC] [TIFF OMITTED] T5617.124
    
    Mr. Porter. I'd like to ask, Mrs. Kelley, possibly we can 
chat some time as to maybe a blueprint that you would suggest. 
I say this, taking lead at Mr. Styles from a positive 
perspective. I would assume you would concur that the system 
needs some change, whatever it is. We may disagree on what that 
it is, but it's a system that's been in place for 50, 60 years. 
Today is not necessarily the time, but this is a draft, and I 
would encourage that we could sit down and come up with some 
positive ways to work on a system, a new and improved system. I 
realize it's not a question. I just look forward to working 
with you for some ideas and a blueprint you would suggest.
    Ms. Kelley. I would welcome that opportunity. But if I 
could add, Mr. Chairman, I do not think the current system is 
perfect, but I believe what is wrong--where the current system 
is the implementation of it, not so much the system. So my 
worries are really magnified when I think about a vague, 
undefined system and having to implement that, when there are 
so many problems with implementation of the structured system 
in place today.
    Mr. Porter. I would expect you have heard this morning, not 
only from some of the panelists but the subcommittee, that we 
have similar concerns. Thank you.
    Again, we always like to pick on manager styles. I follow 
your lead again and ask for comments from Ms. Shaw.
    On a positive side, you have had such great success and 
we've been hearing this morning of the pros and the cons, and 
certainly a lot of cons have been brought out, but how does it 
work, how did you do it? Share with us how you had such great 
success, because, based on what I'm hearing from some folks 
this morning, is that it can't work and it hasn't been 
successful.
    Ms. Shaw. Well, it can and does work. It's worked for 
Federal Student Aid. I'd like to say for the record here, all 
of the accomplishments in the Federal Student Aid Office at the 
Department of Education have been made by our incredibly 
dedicated and talented Federal career staff at all levels. We 
have just under 1,100 employees and those are the people who 
did all the work for these accomplishments.
    I would say that what we have been able to do, we do have 
some flexibilities afforded to us in our performance-based 
organization statute. We've been able to use those, and 
particularly the hiring flexibilities I described. But also I 
need to add that we've been able to work very diligently with 
what--the other processes and procedures that are already in 
place.
    We've heard some of my panelists up here talk about the 
system that we have today is difficult for people to 
administer. It is. We have focused on that very diligently. We 
have a host of training for our supervisors, new supervisors, 
employees, around performance management and how that could and 
should work, and we just keep at it.
    We don't expect change overnight. We've been working on 
this during my tenure, for 3 years. And there is an 
organizational and operational and people readiness around 
change. And we have been working that with a very focused plan 
around our work force management. We have a strategic plan 
around that, and it is working. I'm not here to say it's 
perfect, but it is working. We are delivering incredible 
results for the Department and for taxpayers.
    Mr. Porter. Thank you. I think I said earlier, and I would 
concur with your comments that we truly have some of the best 
and brightest working for the Federal Government. With proper 
funding, proper leadership, and proper training, I think we 
certainly could emulate what your success is also. So with 
that, I'd like to just remind the subcommittee we have about 
another 30 minutes for questioning. I'd like to open it up for 
questions.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Let me begin with Ms. Shaw. First of all, let me 
congratulate you on the vast improvement in the student loan 
program. The taxpayers are happy, and I'm sure that the 
consumers, colleges and universities, and particularly students 
themselves.
    I just want to note for the record that the Washington Post 
did run an article this summer in which it talked about 
thousands of civil servants leaving the Federal Government, and 
that OPM led the list, 21.8 percent. So they wanted to seek 
employment elsewhere in the government. The high rollers were 
the OPM, Homeland Security, Defense--these are all 
percentages--and, surprisingly, OMB. I guess they're tired of 
cutting people's budgets or something. And the Education 
Department was among the high rollers.
    I don't think that takes away from what you have done. I've 
read your testimony carefully and listened to you, and as best 
I can tell, there are two major factors responsible for your 
success. First of all, the problems with the agency were 
attributable, it seems to me, to two bodies. One is this body 
and the other is the management of the agency. And when you 
describe what you have been able to do, essentially put in 
place whole new systems so that you have tackled the high 
default rate, that didn't have a thing to do with employee 
performance. That had to do with the management of the agency.
    Unhappy customers. That had to do with the shocking 
performance of the agency. And its customers were, of course, 
the colleges, universities.
    Financial controls. That didn't have anything to do with 
anything, except how managers, in fact, enable an agency to 
run.
    Then you go on in the second part of your testimony to 
indicate how you did it, and one of the things you stress--and 
I appreciate, and I'm not sure there would be much exception 
taken to what you did in hiring--if we were in fact to 
streamline our hiring. And you talked about hiring 70 senior 
managers and professionals with the right skills who were 
needed to work with the Federal career staff. Your career staff 
is still there. The same folks are still there who everybody 
was complaining about, and I know exactly what that process is 
about. When I came to the EEOC, the people who took the flak 
were the investigators, were the people who had to deal with 
the public. What needed to happen was a whole new system needed 
to be put in place.
    With all due respect and for all the credit you must be 
given, I must say that you show what can be done with the 
present system, with the present pay system, with the present--
absolutely everything else. We didn't do anything to you the 
way we did to OPM and to DHS. You made the present system work. 
I think everybody needs to get in there, first and foremost 
GAO, and find out how by putting in new systems you were able 
to get the same civil servants to give you far better 
performance. Has there been a GAO study of what you have been 
able to achieve?
    Ms. Shaw. Well, GAO was in for practically a whole year 
before they took the Federal Student Aid programs off the high-
risk list, and they studied us from top to bottom.
    Ms. Norton. But they were studying, of course, the very 
things you report in your testimony.
    Ms. Shaw. They studied--one of their particular focus 
points was around our work force management and how we were 
caring for our staff, growing our staff, focused on 
performance, focused on the challenges that face every agency 
with succession planning, the aging work force and planning for 
the future. They actually spent an incredible amount of time 
with us on that.
    And I don't disagree with you, and I remarked to the 
chairman that we worked very diligently to do better with what 
we did have in terms of process, procedure, and program and 
systems. And I'm not going to deny it does take leadership, not 
only from me, but from every leader and manager in the Federal 
Student Aid Office; and for my office, that's around 150 
people. I meet with those people once a month, all together, 
and we talk about these kinds of things: How are we going to 
elevate our performance? How are we going to solve for this 
problem or that problem with what we have? How are we going to 
use the flexibilities that are afforded to us in a very smart 
and managed way and with purpose, with an end result in mind, 
and be able to, of course, correct as we go to inform ourselves 
with things that maybe weren't working so well? How are we 
going to change that? So it's a combination of all of those 
things together, you're absolutely right.
    Ms. Norton. Thank you. I think this neglected notion of how 
management transforms, rather than workers from the bottom up 
transforming agencies, could not be more important. And I don't 
know the extent to which it's reflected at all in our bill.
    I do have a question really out of--really to ask the 
experts who have been looking at this. With all due respect to 
you and the work you have done, because I think your work, Mr. 
Gould--and, I'm sorry, is it Mr. Stier--is very important to us 
to get, by people who think from outside the government. But 
you are not helping me enough to meet the intellectual 
challenges that I think we are posed with.
    Let me just put the hard question to you as far as I'm 
concerned. First you have to ask yourself why would anybody set 
up a system like this. Why would anybody set up a cumbersome, 
unwieldy system for hiring people, when we live in a market 
society and everybody else out here gets paid basically to the 
extent that they can? And of course, this is overblown, this 
whole notion that everybody in the private sector gets paid 
based on merit, and everybody sits down and goes through these 
exercises. But let's leave that for a moment. Why are we in 
such a system? All of this talk about market-based doesn't 
phase me at all, because I don't work in that system.
    If I ask myself these two hard questions, I come back with 
these answers. We have this system for this unique work force 
for two reasons: One, when there was a market-based system--if 
you will forgive me, before there was a Civil Service system, 
there was wholesale favoritism and fraud that so disgraced the 
government of the United States that the Civil Service system 
was created. Second, over the years, as a result of cases 
brought in the courts, the courts have been forced to face the 
fact that this is a system to which Constitutional protections 
of due process apply.
    Now, unless you can help me get through those two major 
issues, you can't--the rest of this I already know and accept. 
Therefore, I need to know, giving you the two great challenges 
I see we face, how you would deal with a section of the present 
proposal, for example, that gives so much flexibility to pay 
that if an employee happens to be in the wrong pay pool, the 
pay pool which the supervisor has decided in his discretion it 
should not have, that group should not have the same kind of 
increases that others have, even though that person has worked 
their fanny off trying to hold up their end of the bargain. 
That person is out of luck.
    So if you can help me get through that, you would have 
helped me. Or if you can help me get through this, you have 
helped me. We're talking about pay for performance. Now, we're 
talking about pay for performance so far in a bill that would--
and, again, the chairman could not be more right, it's not a 
bill. We know what the administration has proposed, but we have 
not disposed yet; and the chairman is trying to find out what 
is the best way to do this.
    But look at what it would do. Performance on which your 
pay, your life, sir, depends, for all intents and purposes, not 
to mention you might be out of the government altogether based 
on this performance. That doesn't have to be in writing, can be 
set--if the particular supervisor decides, or the agency 
decides, it can be for the team, performance for the team, it 
can be for the organization; in fact, it can take any darn form 
you want it to take.
    Now, I'm talking about a 2 million work force Federal 
Government, and I'm talking about the structures we're talking 
about, and you don't help me unless you can help me get through 
those kinds of circumstances; because I guarantee you this, 
gentlemen, this system, as the administration has now given us, 
is a bonanza for lawyers, but it won't do anything for the work 
force, because you'll be litigating this over and over again.
    And I'd like your answers based on those two examples.
    Mr. Stier. Congresswoman Norton, system change alone is not 
going to fix our problems here. And as President Kelley said, 
implementation issues are vital, and that is part and parcel of 
our recommendations here; that we focus now, irrespective of 
any legislation, on making sure that we help the Federal 
Government improve its performance by focusing on management 
capacity, on training development and a variety of other 
issues. That has to be dealt with here and now, and I think the 
function you're performing here in the oversight role will be 
also vital to making sure that the Federal Government gets the 
resources it needs and also focuses the attention that it 
needs.
    Ms. Norton. Would you agree, for example, before you went 
to any system that said you can pay based on that, that you 
ought to experiment with that in a sufficient number of folks 
before spreading it throughout the work force? Would you agree 
that before you decided that there should be flexibility to pay 
performance, on which everything is based, could be any darn 
thing you say it should be at your discretion? Do you believe 
those things should be implemented only after it has been shown 
they produce fairness and that they survive due process 
constraints under which the government of the United States, 
even its work force, must operate?
    Mr. Stier. I would agree with you 100 percent. I think the 
Working for America Act does this. Agencies should not be given 
additional authorities and additional flexibilities until they 
can show that they can use them effectively. And that is, I 
think, a very important component of this legislation.
    You asked the question why would anyone set up the system 
that we have here today? And I would argue with you that all of 
the issues that you raised can be addressed in a very different 
system, a more streamlined system. I don't think anyone set up 
this system, I think it grew topsy-turvy over time. I think it 
grew because there wasn't sufficient focus from the top of the 
house down on making sure we had a system that was enabling 
people inside government to do their jobs effectively.
    I think all of your concerns are absolutely legitimate in 
that there is no doubt that the public sector is a different 
environment than the private sector. There are different 
concerns and there are different needs, and it would be a 
mistake to believe that any system that is the best in the 
private sector could be translated fully, as is, into the 
public sector.
    That said, I believe there is enormous room in the existing 
system to permit Federal workers to be in an environment in 
which they are supported more, they're rewarded more, not just 
financially but in recognition for better work. I think that 
would enable Federal workers to do more and do better. I think 
there is enormous room to permit the system to allow it the 
flexibility to hire people at rates that reflect the overall 
talent war that's out there.
    When the Federal Government is looking for people, it's 
competing against all other sorts of organizations and 
different sectors, and I think that's what the Working for 
America Act should be designed to do. And I think there is room 
here for it to do that.
    I look forward--I think that there are individual places, a 
lot of places where it can be improved. I think that the 
chairman's question to President Kelley is a great one. I 
believe that there is going to be unanimity that we can do 
better, and the real issue will be identifying ways to make 
that happen.
    Mr. Porter. Thank you very much. Mr. Gould.
    Mr. Gould. My view is the system was created 50 years ago 
when Frederick Taylor reigned, and the nature of the mission 
challenges the government faces today have changed 
substantially: faster cycle times, greater threats, the 
evolution of terrorists in the world, plagues that can travel 
the globe in a matter of hours on an aircraft. We need people 
who think, act, and move differently in the system and a system 
that will support that.
    I offer that as a mission-base perspective at the same time 
that I acknowledge your very astute point on what part of the 
system do we need to preserve the merit-based components, 
protecting from undue political influence, and recognizing the 
core fact that government is spending other people's money, the 
taxpayers' money. We've got to find a way to do that 
efficiently and effectively.
    Mr. Porter. Thank you. We just have a few moments left.
    Ms. Norton. I want to say, Mr. Chairman, that one thing 
that this hearing has done for me is to indicate where emphasis 
has to be. Certainly it's not on these bottom-line notions, all 
that you have just said about the need for upgrading the system 
or changing even substantially a system after 50 years. You get 
everybody agreeing with that in the whole Congress, and that 
will get us nowhere.
    What in fact we need to do is, and Ms. Shaw has helped us 
immensely by showing us the difference between hiring where the 
flexibility does not implicate due process in nearly the same 
way, to some extent, but not nearly in the same way; that 
streamlining can work; and that you can use hiring as part of 
the overall system.
    But her testimony also shows us, and everybody needs to 
look at what she's done, because she did it with what was in 
place. And no one here has talked about what is in place works 
good enough, or is all of that to be disposed of? So I would 
ask us to focus on two things, because those are really the 
only two things that matter here: performance and how we 
measure that; and pay, and how you arrive at how pay is done. 
Everything else is secondary or tertiary. Thank you.
    Mr. Porter. Thank you very much. Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. Thank you all for 
your testimony.
    Thank you, Mr. Stier, for what you do at the Partnership 
for Public Service to recognize the many achievements of our 
public employees. I thought that the reception that you had the 
other evening, recognizing those public employees, put exactly 
what we're talking about here, the importance of the positive 
forward and the incredible achievements of so many of our 
public employees.
    So often, I think, to the American public you have this 
image of faceless bureaucrats, and I think that's compounded by 
the fact that people often are critical of the Federal 
Government without knowing what they do and the complexity of 
the services they provide. So I think that recognition is 
important, and I thank all of you for coming to testify in that 
spirit.
    I would also like, Ms. Shaw, to congratulate you on what 
you have been able to do, and part of what does come out of 
this conversation is the leadership of the manager is 
important, and it's also important to support the managers with 
the resources they need both in terms of training, so we have 
trained managers, and that they have the resources they need to 
provide the incentives that we need to deliver.
    We're having this discussion outside sort of the whole 
budget process, but I think we all have to understand it's easy 
to say we're going to provide the resources, but I can tell 
you, around here providing resources for this kind of critical 
function has been very difficult to get.
    So I hope that everybody will be just as unified in calling 
for those additional resources and not supporting an effort 
that's going to go forward in a way that's not done right. You 
need the resources to do it, and the testimony has reflected 
that.
    I'd just like to pursue a little bit what my colleague Ms. 
Norton, Representative Norton, was discussing with respect to 
the existing tools that are out there that would allow us, if 
they were put to better use, to get better results. I think 
that there are clearly areas for improvement. We need to be 
able to hire people more quickly. Doesn't do anybody any good 
if people who want to join the Federal Government and offer 
their services and are qualified, if they go somewhere because 
we can't hire them quickly.
    Clearly, we need to compete with the private sector on 
salary in many, many areas, because we are losing expertise. I 
do think that we need to be able to provide managers to have 
clear criteria for their employees, the ability to reward 
employees, but I would just--here is an example I think sort of 
tests the system.
    There is a little department within the State Department, 
the Bureau of Intelligence and Research. You can't measure them 
by what they produce in terms of how many student loans they 
grant or that kind of performance. They are measured in 
performance in terms of their ability to try to analyze what is 
going on around the world and provide an intelligent assessment 
and analysis of threats and that kind of thing. The Bureau of 
Intelligence and Research, if you look at the footnotes on 
various intelligence, national intelligence estimates, were 
among the people who said, with respect to Iraq, that there 
really wasn't a great--a lot of evidence of weapons of mass 
destruction in Iraq.
    And I am not going to debate the Iraq War. I am just saying 
that is their job is to reach that conclusion. There was a 
little foot buried in the national intelligent estimate. They 
did their work. They were skeptical. They did it at some risk 
to themselves in many cases because the whole politics of this 
were that we are going to find evidence.
    Well, I don't think any of them, frankly, has been 
recognized or rewarded for the fact that they got it right and 
then you have George Tenet getting the Presidential Medal of 
Freedom, and he said it was a slam dunk case that there were 
weapons of mass destruction.
    Now, this is the political environment that we operate in. 
And we need to have a system where those Federal employees, 
whether in INR or Department of Education, or wherever they may 
be, have the assurance that their work is being judged based on 
their performance and not being judged based on other 
considerations.
    Now we have a vast Federal Government. Some of it is done 
in a context that is not that political. But much of it is done 
in a context political. And whatever system we come up with has 
to be able to accommodate employees in both spectrums, or you 
are going to have to have separate systems, depending on the 
nature of the work.
    And so I just, as we go forward, and Representative Norton 
was talking about that, which is that part of the reason we 
have the existing system is to prevent people from being 
unfairly punished just because they have a different political 
perspective in certain jobs.
    And many jobs, again, are outside that parallel. So I would 
just ask, with the system we have today, what more should we be 
doing, what are the existing authorities that people have that 
are not being taken advantage of? If we are not allowed to hire 
people quickly, we should change that, in my view. OK, if we 
can't compete with the private sector, which we obviously 
can't, we should change that. We can find common ground.
    But where are some areas in terms of pay for performance 
like the bonus system that are not being adequately used today 
to try and do the kinds of things that Ms. Shaw has been able 
to do under the existing system? And I would just throw that 
open to all of you.
    Mr. Gage. Well, there are a number of things. I have been 
advocating that we take a look at our career ladder system. And 
I don't disagree with what anyone said about hiring. But once 
you're in, what motivates Federal employees is not the within 
grade increase that everybody says is--I don't know, people get 
unfairly or just for longevity.
    What motivates Federal employees is promotional 
opportunity, is to be able to do a good job and to really 
excel. And I see that just an agency that week I believe is 
saying one problem with their pay for performance is that 
people with a pay band did not have that incentive to work hard 
for a promotion. And I think that is an incentive that really 
is overlooked by the whole pay banding. But you know to reward 
people, I think there is opportunity right now, Mr. Van Hollen, 
to reward the best and brightest. I don't think that really is 
a problem to use the system that we have right now to reward 
the best and brightest. And if we want to change criteria from 
within grades, have at it, that's fine. That is really not a 
problem. I think that the pay for performance system and the 
experiments that we have seen so far are really apples and 
oranges compared to what this is.
    Some of these, most of these, and I look forward to seeing 
OPM's paper on these things, but most of them have--the 
agencies have put supplemental money into it. People are 
getting actually more money under that system--under the 
experiment. I don't think that is the same--that is 
contemplated in this proposal.
    I think too, that when you break down, and we had a hearing 
the other day in front of the Senate, and I thought there was 
pretty much of a consensus that in the Federal Government, one 
size does not fit all with many of our jobs. Pay for 
performance, for instance, in law enforcement, will not work. 
Can't work. Kills that teamwork. It just--no experiment has 
showed that it works.
    So I think it takes a lot of thought and to be very careful 
to try to extrapolate from some experiments that applies to 
scientists and take that down to our VA workers, our Social 
Security workers, whose job is much different than the jobs 
that were used in these experiments.
    Ms. Kelley. I would also suggest that the agencies do have 
authority to do some things today that they don't make the 
maximum use out of, things like quality step increases to high 
performers. They are given out in most agencies in very small 
numbers. And there are no restrictions on that. They can give 
them as they see fit. Yes, they have to do it within their 
budget structure, they have to be able to fund those. But those 
are recognitions that are seen and recognized across the 
Federal work force when they are given. But they are given so 
rarely.
    There are also opportunities for managers to provide 
management awards. And they have the discretion to do that. 
Because we see them not implementing that very much, in many of 
our negotiated rings, NTU has negotiated award agreements with 
agencies so that there are known criteria for what employees 
would need to see in a performance evaluation to know that they 
would then be eligible for, or not eligible for an award under 
the negotiated system. And we have done that because left to 
the discretion of the agencies, they just do not use these 
things the way they should.
    Are they, you know, the be all and end all? Would it solve 
all the problems of the current system? Of course not. But 
there are two things right there that are within their 
discretion that they do not use.
    And someone last week at a hearing said that everyone gets 
quality step increases. Well, I can tell you that is absolutely 
not true. We have looked at numbers across agencies where NTU 
represents and the percentages of employees who receive these 
are very small. And there is no consistency across agencies. 
Some will give as high as 5 or 10 percent of the work force, 
and others will give less than 1 percent. We have worked with 
some of our agencies in an effort to have them raised to more 
of an average government level. Even though we don't think 
there is a magic number, we think that if an employee is told 
if they do A, B and C, and that is what they need to be to 
excel, and they excel, then they should expect that recognition 
and reward at the end.
    I agree it is not just about money, but it is about 
compensation and it is about recognition among the work force. 
It is about promotional opportunities, about detail 
opportunities, about temporary promotions, about creating new 
jobs that will allow these employees to use the skills that 
they have shown that they have and can excel at.
    And all of these things are available to every agency today 
with no limits on them at all, and yet they are not used.
    Ms. Shaw. If I may add, we do use all of those things that 
were just mentioned in Federal Student Aid. And in fact, we 
used existing performance management system at the Department; 
it is called Ed Pass. It is a five-tier system from highest 
performance being outstanding, lowest being not acceptable. We 
have spent the first 2 years of my tenure really focused and 
talking about performance and educating the work force, 
including management, training management, what does it mean to 
have a sound, understandable, measurable performance plan? How 
do you as a manager, evaluate that performance fairly and 
accurately with that employee-based process that is currently 
in place?
    And then what we believe in, in the Department of Federal 
Student Aid, is we want to reward the highest performance to 
the maximum extent we possibly can. Our average outstanding 
performer on this recent review cycle received an average of 
$6,000 cash award. I don't know if that is high compared to 
other agencies or not, but we told our performers, if you 
perform in an outstanding manner, we are going to be fair and 
we are going to reward you. And we have done just that. And 
people respond. And it is not just about money. They do 
respond.
    We are doing incredible work. And people want us to be fair 
and they do want us to recognize their performance. And that is 
what we are about.
    Mr. Styles. I think revamping some of the processes as 
well, when you talk about QSIs, different agencies have 
different methodologies for providing the QSIs. And I think 
that, you know, you keep hearing me going to funding, funding, 
funding. Even if you go to pay for performance, if you don't 
provide the funding, you're going to undermine the system 
before you even get there.
    If you talk about market-based pay, if I could just jump to 
there for a second. For us to take GS-11 and 12 brackets and 
put them together and call them a pay band, and then 13 and 14 
and make them a pay band, that is all well and good, especially 
at the hiring levels where it gives you a little more of an 
opportunity to hire people at different levels. But if you 
don't raise the top level, if the GS-14 step 10 or GS-12 step 
10 remains the same as it is today, you have not created a 
market-based pay system unless you put into effect FEPCA, if 
you really want to come down to it.
    If you do not have those levels within those market areas 
equal to, how can you possibly go out and recruit those folks 
using a market-based pay? Did I make any sense with that? All I 
am saying is to name it something, without providing that 
essential tool, which happens to be the dollars, and the 
benefit program that we have in place, then you're not going to 
accomplish anything by doing that.
    Ms. Kelley. If I can add one other thing that I hear over 
and over, and in my experience, front line managers share many 
of the same issue with front line employees. That is where the 
rubber meets the road. That is where the work gets done. And 
they very often, the front line manager wants to recognize the 
front line employee. They want to give them a QSI or they want 
to give them a cash award. And then what they run into is lack 
of support from above.
    I have had employees tell me that they were nominated for 
QSI and their manager said they were told they could only put 
in one per group. Well, what if you have three top performers, 
three outstanding performers? Putting caps like that is not pay 
for performance. That is exactly the kind of thing that will 
give no credibility to a system. And that happens every day 
today where front line managers who see the work and recognize 
the top performers, and who should be recognized and rewarded 
so they can motivate as well as reward, are not being supported 
in their efforts, whether it is about training, whether it is 
about support commitment, funding whatever it is, those front 
line managers are really in a position where they cannot do 
what they recognize needs to be done on behalf of the front 
line employees.
    And I don't doubt that it happens to them too, but I can 
just tell you that I see it between the front line managers and 
front line employees all the time, that the front line managers 
are in a very, very difficult position and not being given the 
training and support and funding to do what they know is the 
right thing.
    Mr. Porter. Appreciate your comments. We are out of time. 
Mr. Van Hollen.
    Ms. Norton. Would the gentleman yield to me? I just want to 
because I think something very important has happened here. You 
know, in this last discussion, I think we have learned that 
there are more than the devil in the details, that the solution 
to much of this may lie in the details.
    You were telling me stuff, you know, I didn't know, and I 
find it very informative. Because, first, when my colleague 
asked about quality staff increases, my first notion I said to 
him, do you know why anybody would do it? And this discussion--
by the way, Ms. Kelley, I can see reasons why there would be 
some limits on it, you know, wherein the front office has to 
deal with the agency's total budget, I can see where there 
might be great variations, and I am sure you can see 
circumstances in which that would happen. But I am driven back, 
as I listened to you, to a hypothesis, that despite Ms. Shaw's 
experience, and again, she is a gold star performer, where she 
has been able to do very substantial quality step increases, 
apparently, without getting morale problems within the agency.
    Let's assume that, at least. I am driven back to the risk 
that the manager takes by presuming to do so in a system, 
again, bound by due process, where everybody compares to 
everybody else under the law, where there is, in place, no 
standard, even a rough one, to guide that manager, and so the 
manager sees what she wants to do and she does it. She is 
taking a great risk. And the burden is on the Congress to help 
the OPM come to some way to harness this so it can be used.
    Mr. Porter. Thank you, Ms. Norton.
    Mr. Van Hollen. I want to thank you all you for your 
testimony. I think this was a hearing where lots of good ideas 
came out. I think the transcript will be something that we will 
all want to read as we go over this. And we welcome obviously 
your continuing input. Thank you, Mr. Chairman.
    Mr. Porter. Thank you very much. I appreciate you all being 
here. We had some diverse opinions, but all taken in a positive 
sense. I would hope that as we picked on you, Ms. Shaw, today, 
in a positive way, we would like to make sure that your 
successes would be the rule and not the exception. And it 
appears that there are managers that are afraid to take--or 
afraid they are not going to have support. There are leaders 
that have troubles with existing systems. So we want to make 
sure that yours is the rule and not the exception. Thank you 
all very much and all Members will be able to submit additional 
questions. And they can submit them for the record. I want to 
thank you all for being here today. The meeting is adjourned.
    [Whereupon, at 12:14 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T5617.125

[GRAPHIC] [TIFF OMITTED] T5617.126

[GRAPHIC] [TIFF OMITTED] T5617.127

[GRAPHIC] [TIFF OMITTED] T5617.128

[GRAPHIC] [TIFF OMITTED] T5617.129

[GRAPHIC] [TIFF OMITTED] T5617.130

[GRAPHIC] [TIFF OMITTED] T5617.131

[GRAPHIC] [TIFF OMITTED] T5617.132

[GRAPHIC] [TIFF OMITTED] T5617.133

[GRAPHIC] [TIFF OMITTED] T5617.134

                                 <all>

</pre></body></html>
